<html>
<title> - MOVING BEYOND THE FIRST FIVE YEARS: ENSURING FEMA'S ABILITY TO RESPOND AND RECOVER IN THE WAKE OF A NATIONAL CATASTROPHE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  MOVING BEYOND THE FIRST FIVE YEARS: 
    ENSURING FEMA'S ABILITY TO RESPOND AND RECOVER IN THE WAKE OF A 
                          NATIONAL CATASTROPHE
=======================================================================


                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2008

                               __________

                           Serial No. 110-103

                               __________

       Printed for the use of the Committee on Homeland Security

[GRAPHIC] [TIFF OMITTED] 

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

43-752 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

Loretta Sanchez, California          Charles W. Dent, Pennsylvania
Norman D. Dicks, Washington          Mark E. Souder, Indiana
Nita M. Lowey, New York              David Davis, Tennessee
Eleanor Holmes Norton, District of   Tom Davis, Virginia
Columbia                             Candice S. Miller, Michigan
Donna M. Christensen, U.S. Virgin    Peter T. King, New York (Ex 
Islands                              Officio)
Bob Etheridge, North Carolina
Bennie G. Thompson, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2

                               Witnesses

Mr. Harvey E. Johnson, Jr., Acting Deputy Administrator and Chief 
  Operating Officer, Federal Emergency Management Agency, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Appendix

Questions From Chairman Henry Cuellar............................    43
Questions From Hon. Bob Etheridge................................    45
Questions From Ranking Member Charles W. Dent....................    51


MOVING BEYOND THE FIRST FIVE YEARS: ENSURING FEMA'S ABILITY TO RESPOND 
           AND RECOVER IN THE WAKE OF A NATIONAL CATASTROPHE

                              ----------                              


                        Wednesday, April 9, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Lowey, Norton, Jackson 
Lee, Christensen, Etheridge, and Dent.
    Mr. Cuellar [presiding.] The Subcommittee on 
Communications, Preparedness and Response will come to order.
    The subcommittee is meeting today to receive testimony from 
the Department of Homeland Security, the Federal Emergency 
Management Agency on the status of the implementation on the 
FEMA reforms and to discuss FEMA's preparedness for the next 
disaster.
    Again, good morning, and, first of all, on behalf of the 
members of the subcommittee, let me welcome our witness. We are 
glad that you are here to give us an update on how FEMA has 
been doing on the FEMA reforms.
    The hearing today is entitled, ``Moving Beyond the First 
Five Years: Ensuring FEMA's Ability to Respond and Recover in 
the Wake of a National Disaster.''
    As many people know, the Department of Homeland Security 
just passed the 5-year anniversary since its creation. 
Throughout the month of April, each homeland security 
subcommittee, as well as the full committee, is taking a look 
at the Department's vision for 2009 and beyond.
    While we want to acknowledge mistakes have been made by the 
Department over the past 5 years--FEMA has done some of that 
also--we certainly want to work with you all together to make 
sure that we learn from these mistakes. Certainly, I know that 
FEMA has done a good job in many of the areas, and we certainly 
want to recognize--I am one of those types of chairmen that I 
want to not only recognize the bad things but also recognize 
the good things that FEMA has been doing.
    We want to make sure that we work with you with the 
Department to make sure that you have developed a vision beyond 
the end of this administration. It is vital that the 
Department, in light of the critical mission, establish some 
policies and procedures to ensure that there is continuity in 
the day-to-day operations during the transitional period 
between administrations. It doesn't finish on December 31 or in 
January with a new president. We want to make sure those 
policies are there to make sure that we continue to whomever 
might be the new president.
    This is especially important for FEMA which role has 
expanded greatly since the Department was created. On October 
4, 2006, President Bush signed into law the Post-Katrina 
Emergency Management Reform Act of 2006, which, as you know, 
made substantial changes to FEMA in the Department of Homeland 
Security.
    It created new leadership positions with clear position 
requirements, new missions and restored some responsibilities 
that had been removed. Finally, it enhanced the agency's 
authority to undertake a broad range of activities before and 
after disasters occur.
    Efficient, timely and effective implementation of the act 
is critical to homeland security, and it has been a high 
priority for myself, for Chairman Thompson and the rest of our 
committee.
    Again, as I mentioned a few minutes ago, I believe there 
has been significant progress that has been made under Chief 
Paulison and your leadership, and we want to thank you for the 
work that you have done and your staff to reform the way our 
Federal Government responds to disasters and to make FEMA a 
more responsive and effective agency.
    I believe that exceptional work has been done in the areas 
of disaster operations, logistics, strengthening regional 
offices, to name a few.
    I think on a personal note, I mention, at least in my 
particular district, what happened in Webb County and what 
happened in Starr County, in my particular district, after we 
had the floodings, FEMA responded in an excellent way. I talked 
to my local folks, the mayors and the county judges, and they 
had high praise for the way that FEMA responded. So at least on 
a personal note, personal knowledge, I do want to say thank you 
for the work that you have done.
    You all have done exceptional work in the areas that I 
mentioned, but there are still some challenges that still 
remain. We still have to look at the progress with emergency 
housing, public alerts and warnings, contracting and the 
integration of grants and the agency's various preparedness 
initiatives. We have concerns, and we want to make sure that we 
work with you and look at the progress to make sure that we 
improve in those areas.
    So we look forward to hearing your updates on the efforts 
on this particular area.
    So I want to thank again the witness again for the 
testimony that you will be providing, and at this time, the 
Chair recognizes the Ranking Member of the subcommittee, the 
gentleman from Pennsylvania, Mr. Dent, for an opening 
statement.
    Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    Last Congress, as you know, this committee was instrumental 
in the enactment of the Post-Katrina Emergency Management 
Reform Act of 2006. This legislation required a number of 
organizational, programmatic, and policy changes to implement 
the lessons learned from Hurricane Katrina.
    This legislation also aims to ensure the Department of 
Homeland Security and FEMA will be better prepared to respond 
to future catastrophic events. FEMA began informal 
implementation of the act last April. Since that time, it has 
made substantial changes in areas such as logistics management, 
coordination with State and local government officials and 
other stakeholders, and establishing guidelines for strategic 
and operational planning efforts.
    The DHS Office of Inspector General issued a report last 
week entitled, ``FEMA's Preparedness for the Next Catastrophic 
Disaster.'' As the report details, the inspector general found 
that FEMA has made moderate or modest progress in all but one 
of nine key areas evaluated by the report. The report notes, 
however, that progress has been hindered by ``budget 
shortfalls, reorganizations, inadequate IT systems and 
confusing or limited authorities.''
    As this committee continues to exercise its oversight and 
legislative authority over FEMA and the Department, I hope we 
pay close attention to the issues that may negatively impact 
the implementation of these much needed reforms, and I hope 
that we, as a committee, do what we can to assist FEMA in 
making progress.
    One way we can do this is by urging the next 
administration, regardless of party, to preserve the current 
organizational structure of the Department. There have been 
several major reorganizations of the Department since 2003, as 
well as other program and funding transfers; it is time to stop 
moving the boxes around. FEMA and the Department must be 
allowed time to implement existing requirements and focus on 
their core missions.
    In addition, while it appears that the committee will not 
consider an authorization bill for the Department this year, I 
hope we reinstitute this policy moving forward.
    The end year authorization bill will help ensure our 
committee has a stronger voice in determining priorities for 
the budget and for the appropriations process.
    I am pleased that we have today Acting Deputy Administrator 
Harvey Johnson who is with us today to discuss FEMA's progress 
to date. Among other things, I do look forward to discussing 
with him how we can best help FEMA continue to strengthen the 
Nation's preparedness for a catastrophic event.
    So, Mr. Chairman, I thank you, and I yield back my time.
    Mr. Cuellar. Thank you very much.
    We do know that other members of the subcommittee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    At this time, I do want to welcome our witness, Admiral 
Harvey Johnson, who is the acting deputy administrator and 
chief operating officer for FEMA within the Department of 
Homeland Security. Admiral Johnson came to FEMA in April 2006 
after serving as commander for the Pacific area of the U.S. 
Coast Guard. Admiral Johnson has a wealth of emergency and 
crisis management experience, including support to the Admiral 
Thad Allen and the Coast Guard's Hurricane Katrina's response 
efforts by coordinating and deploying the West Coast resources.
    We are pleased to have you present here today, Admiral. 
Without objection, the witness' full statement will be inserted 
into the record. I will now ask the witness to summarize his 
statement for 5 minutes.
    Welcome.

      STATEMENT OF HARVEY E. JOHNSON, JR., ACTING DEPUTY 
 ADMINISTRATOR AND CHIEF OPERATING OFFICER, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Good morning, Mr. Chairman, Ranking Member 
Dent, members of the committee. I am Harvey Johnson, acting 
deputy administrator and chief operating officer of FEMA from 
the Department of Homeland Security, and I am pleased to 
discuss the progress that FEMA has made over the last 2 years 
and describe where we expect to see accomplishments in the 
years ahead.
    The FEMA of Hurricane Katrina is being progressively 
transformed into a new FEMA that is intent on achieving its 
vision of becoming the Nation's premier emergency and 
preparedness agency. To achieve this vision, we have taken on a 
new operational ethos: To lean further forward to provide more 
effective disaster assistance to communities and disaster 
victims. While both of these may sound more appropriate as 
bumper stickers or feel-good slogans, they have in fact been 
internalized throughout FEMA, from headquarters to the regions, 
to disaster sites, and they are reflected in all that we do.
    The vision for our new ethos has inspired an organizational 
restructuring within the headquarters as well as the field. The 
division once simply called Recovery is now titled Disaster 
Assistance; one simply called Response is now Disaster 
Operations; and one that was a branch, not even a division, has 
been elevated to become the Logistics Management Directorate.
    More than simple name changes or moving boxes on a chart, 
these organizational changes represent a declaration to those 
inside FEMA and those of our external partners that we have a 
better fix on who we are and what we do. Every day we become 
closer to becoming, in fact, the Nation's premier emergency 
management and preparedness agency.
    For the first time the structure of the regional aligns 
exactly with headquarters to make it easier to effect change 
and achieve consistency.
    In this new vision, we are an agency that is becoming more 
comfortable thinking and acting in an all-hazards environment, 
and we are building the skill sets to extend our mission reach 
into prevention protection just as we are increasingly 
mastering response, recovery and mitigation.
    We are building new operational capabilities in the form of 
incident management assist teams, operational planners and 
watch standards in our response coordination centers. These new 
capabilities broaden our operational reach and give us the 
capacity to be more alert and to lean further forward.
    We are becoming a stronger partner across the Federal 
departments and agencies, exercising Federal lead and 
continuity of operations and continuity of government, managing 
the national exercise system and leading the Federal efforts to 
improve the alert and warning capabilities and to try to become 
the Nation's logistics coordinator.
    In addition, we have reinvigorated our partnership with the 
States in major urban areas, improving outreach to Governors, 
emergency managers and major city mayors, seeking their counsel 
as we develop policy and bring them into our decision processes 
during disasters. We have established new contacts with the law 
enforcement community by selecting former chief of police, Rick 
Dinse, to be the first law enforcement advisor to the 
administrator. We now have, for the first time, a disabilities 
coordinator and a rural and small State advocate.
    We have embraced the preparedness mission, as it has been 
further defined by the Post-Katrina Emergency Reform Act and 
returned to FEMA. With the formal promulgation of both the 
National Response Framework and the National Preparedness 
Guidelines, we are extending throughout all government levels 
and the larger community, represented by the non-profit 
volunteer organizations and the private sector, a higher call 
for emergency preparedness among the communities. Both 
documents establish doctrine, identify objectives and 
priorities and emphasize the value of planning and exercises as 
an avenue to achieve heightened state of preparedness across 
the Nation.
    We have also turned a corner in the administration of State 
and local grant programs where we have narrowed the focus on 
the grants to better guide, and in some cases direct, where 
those funds are spent just so that we can have a greater sense 
of assurance that the investment outcomes will measurably 
contribute to national preparedness.
    Under the leadership of Administrator Dave Paulison, we are 
focusing our investment and our placement of resources into 
building the capability in the field closer to the States, the 
local governments and individual citizens.
    Approximately 60 percent of the new positions are being 
placed in our FEMA regions, and we are passing more authority 
to the regional administrators. The wisdom of that investment 
has proven its value as they have expanded their interaction 
with States and stood alongside each other in disaster 
responses in California wildfires, the ice storms of Oklahoma 
and Kansas, the floods in Missouri, Arkansas, Louisiana and 
most recently the tornados in Arkansas and Tennessee as well as 
other disasters.
    The differences between FEMA and new FEMA have been evident 
to disaster victims as well, as they have engaged with FEMA 
more quickly after a disaster and received assistance faster 
and with less bureaucracy. It is not uncommon to have the first 
individual assistance registration and payment of benefit 
within 24 hours of the president providing a disaster 
declaration.
    Mr. Chairman, I could go on longer in describing the 
changes in FEMA during the last 2 years and foretell a stronger 
and more effective new FEMA, but please allow me to make just 
two more points.
    First, the progress that we have made has come with the 
support and the encouragement of Secretary Chertoff and 
President Bush. The secretary and the president are personally 
supportive, as expressed in the fiscal year 2008 and 2009 
budget request, which have been the strongest in more than a 
decade for FEMA but also in their involvement and advocacy in 
bringing about a stronger FEMA.
    I also wish to thank this subcommittee and the committees 
at large for your support through oversight, budget 
appropriations and provision new authorities, all in direct 
support of a new FEMA.
    My final point: To recognize that strength and character 
often comes through the test of adversity. FEMA has had its 
share of adversity, and our road to progress has included a 
misstep on occasion, but through all of this and through all of 
our changes that I have described, the people within FEMA have 
persevered, and I would like to add that they have flourished.
    They are a dedicated, determined and resourceful lot. They 
have responded to Dave Paulison's leadership by taking his 
charge and turning it into reality. It is the people within 
FEMA that are combined to lead that charge and continue the 
transformation toward the vision for new FEMA.
    Thank you for the opportunity to discuss these issues, and 
I would be pleased to answer your questions, sir.
    [The statement of Mr. Johnson follows:]
              Prepared Statement of Harvey E. Johnson, Jr.
                             April 9, 2008
                              introduction
    Mr. Chairman, Ranking Member Dent and Members of the committee, I 
am pleased to be here today to discuss the progress the Federal 
Emergency Management Agency (FEMA) has made over the past 2 years and 
describe that which we expect to accomplish in the years ahead. FEMA 
today is better able to fulfill our mission, which is to reduce the 
loss of life and property, and protect the Nation from all hazards, 
including natural disasters, acts of terrorism, and man-made disasters, 
by leading and supporting the Nation in a risk-based, comprehensive 
emergency management system of preparedness, protection, response, 
recovery and mitigation.
    The standard operations of FEMA displayed during Hurricane Katrina 
have been improved. The agency has transformed into a ``New FEMA'' that 
reflects the expanded scope of the agency's missions--a mission 
supported through building a National Emergency Management System that 
provides for a more nimble, flexible use of national resources. It 
strengthens the coordination within FEMA elements and with other DHS 
components, and will enable FEMA to better coordinate with agencies and 
departments outside of the Department of Homeland Security (DHS). It 
will also deliver enhanced capabilities to partners at the State and 
local levels and engage the capabilities of the private sector. Day by 
day, FEMA is refining its core competencies while becoming an 
organization that is valued across all jurisdictions as an engaged, 
agile, responsive, and trusted leader and partner.
    FEMA continually employs lessons learned and makes progress toward 
our vision of becoming the Nation's preeminent preparedness and 
emergency management agency. And, we are demonstrating a new ethos as 
we lean further forward to deliver more effective assistance to 
communities and disaster victims.
    The vision for ``New FEMA'' was structured around the Post-Katrina 
Emergency Management Reform Act (PKEMRA) as well as other legislation. 
This legislation expanded our ability to meet the preparedness elements 
of our mission. We have also been shaped by the results of 17 specific 
internal needs assessments that spanned our business functions, 
logistics, finance, human resources, information technology and 
communications. Those self-initiated assessments provided a blueprint 
for our change efforts. The additional reforms uncovered by the needs 
assessments and the organizational transition of preparedness 
components into FEMA on April 1, 2007, completed this important phase 
of our transformation.
    The ultimate direction of FEMA has been mapped out in our new 
Strategic Plan that establishes five strategic goals, identifies 
overarching themes, and provides guidance, objectives and 
implementation strategies. The Strategic Plan has been vital in guiding 
FEMA's directorates toward enhancing their program development 
processes.
    As we enter the last year of this administration, this Strategic 
Plan will guide a course that will ensure that we leave FEMA in a 
better position to serve the American people
    Over the past 2 years, FEMA has displayed its leadership in times 
of national need. That leadership has been evidenced by the timely 
delivery of assistance during various disasters, most recently the 
California wildfires, and also the Missouri floods and the tornadoes 
that overwhelmed Arkansas and Tennessee.
    However, new and reengineered processes, policies, and 
organizational changes will only take FEMA so far. The force multiplier 
of our success is the hard work and dedication of our people. The FEMA 
team is purposefully responding to the challenges of achieving a ``New 
FEMA'', whether in the field of logistics, information technology or 
acquisitions, as operational planners, or as experts able to deliver 
disaster assistance. These are the people who define FEMA; these are 
the people who will make the agency the Nation's preeminent 
preparedness and emergency management agency. We will continue to 
professionalize and educate our workforce, making it a world-class 
operation, in terms of competency, diversity, morale, achievement and 
opportunity for growth. To compliment this capability, FEMA has made it 
a priority to hire qualified professionals in emergency management to 
fill senior leadership positions.
    The new vision for FEMA is grounded in partnerships that encompass, 
yet transcend, the emergency management community to include other 
communities, such as law enforcement, private sector, and those with 
disabilities. Even within our longstanding partnerships, we are 
examining the unique needs of rural communities and small States. To 
that end, FEMA has stood up a Private Sector Office and has also 
appointed a Small State and Rural Advocate, a Disability Coordinator, 
and a Law Enforcement Advisor.
becoming the nation's preeminent emergency management and preparedness 
                                 agency
    I would like to highlight the major steps that FEMA has taken these 
past 2 years, as well as our plans for further refinement and 
integration, including the establishment of several FEMA directorates 
and new initiatives.
Improving Provision of Assistance to Victims/Communities
    FEMA regards the protection and preservation of life and property 
as its top priority. Accordingly, the Disaster Assistance Directorate 
(DAD) is focused on ensuring the timely and effective provision of 
essential financial and technical assistance to disaster-impacted 
individuals, households, and communities is available by efficiently 
leveraging FEMA's Stafford Act authorities.
    In August 2006, the President signed Executive Order 13411 entitled 
Improving Assistance for Disaster Victims. This Executive Order 
directed Federal agencies, led by DHS, with the responsibility to 
improve and simplify the application process for individuals seeking 
Federal disaster assistance. FEMA led an interagency task force in the 
development and delivery of a Disaster Assistance Improvement Plan 
(DAIP), which outlines a coordinated, actionable strategy to implement 
a consolidated and unified disaster application format by December 31, 
2008. The President approved this plan in September 2007.
    While we are committed to streamlining the process of getting 
disaster aid to victims, we are also steadfast in our responsibility to 
be good stewards of the Disaster Relief Fund. To this end, in fiscal 
year 2007, we implemented new software that maintains data on 
applicants in mobile homes and communicates real-time data to 
caseworkers and the auto-determination system. This software prevents 
duplicate housing payments from being made to applicants already 
receiving assistance through direct housing.
    FEMA has implemented checks in NEMIS that flag ``high-risk'' 
addresses such as check cashing stores, mail drops, cemeteries, and 
jails. Applications with high-risk addresses require an intensive 
review prior to the delivery of assistance to prevent potential fraud.
    Also in 2007, FEMA partnered with the U.S. Department of Housing 
and Urban Development (HUD) to create and pilot the new Disaster 
Housing Assistance Program (DHAP). This new program is a temporary 
housing rental assistance and case management program for eligible 
individuals and households displaced by Hurricanes Katrina and Rita. 
This new program's interaction with disaster victims is administered by 
HUD through its existing national network of Public Housing Agencies 
(PHAs). Since the partnership began, HUD and FEMA have been working 
together to ensure that the transition of responsibility from one 
agency to the other is completed as smoothly as possible.
    Additionally, FEMA has undertaken many initiatives to improve 
implementation of the Public Assistance Program. We have established a 
Public Assistance Steering Committee composed of senior Public 
Assistance staff in each of our 10 regions and 10 State 
representatives. The purpose of the committee is to serve as the Board 
of Directors for the Public Assistance Program, develop the vision, 
strategies and policies to ensure efficient, effective and consistent 
implementation of the program.
    FEMA will continue to refine its evacuee hosting guidance and plans 
to complete five State hosting plans for large numbers of evacuees. 
These State Hosting Plans will help adjacent States that may host Gulf 
Coast evacuees. This effort is designed to synchronize separate State 
evacuation plans to create a more cohesive and unified effort. Teams 
engaged with each State, identifying requirements and capabilities, and 
working to develop a plan that integrates shelter planning with 
transportation planning. The result of these efforts will be more 
timely, better organized, and better coordinated evacuation by those 
with their own transportation as well as for those who need assistance 
in evacuating by bus or air. FEMA also is completing enhancements to 
systems that support mass care and housing activities following a 
disaster. We will implement standard protocols and staff training for 
long-term recovery planning. FEMA will continue to refine plans and 
procedures for managing disaster assistance operations under the 
varying conditions of different catastrophic and extraordinary disaster 
scenarios.
    In fiscal year 2009, FEMA will continue to improve its plans and 
capabilities for managing mass evacuations and the resulting displaced 
populations, including additional State and local plans and development 
and expansion of evacuee tracking systems. The agency will also 
continue to improve, test and exercise its capabilities for all of its 
Individual Assistance functions (mass care, emergency assistance, 
housing, and human services).
Improving Disaster Operations
    Since Hurricanes Katrina and Rita, FEMA has adopted a more forward-
leaning posture, engaged in stronger collaboration and partnerships at 
the local, State, and Federal levels, and augmented its operational 
focus, resulting in stronger and more agile disaster response 
capabilities. FEMA demonstrated these improvements throughout the year 
in response to events such as the California wildfires, Missouri 
floods, Greensburg tornadoes, and Hurricanes Dean and Flossie, as well 
as in exercises such as TOPOFF 4 and Ardent Sentry.
            Headquarters and Regional Operational Planners
    In 2007, FEMA headquarters hired 15 operational planners--the first 
time FEMA has hired individuals with this skill set--to provide the 
capability to perform sophisticated operational analyses, analyze 
trends, and improve planning for the response to ongoing and future 
events. Planners are currently being hired in each of the FEMA Regions 
and Area Offices to provide this same capability in the field. To date, 
more than half the Regional planners are on board. Additional staff 
will be hired in fiscal year 2008 and fiscal year 2009. There is now 
greater depth and capability to work with State and Federal partners to 
prepare operational plans and conduct crisis action planning to ensure 
that the agency can lead and support a national all-hazard emergency 
management response. Regional planners will receive program guidance 
from FEMA headquarters and ensure training objectives and qualification 
standards are met, but will operate under the authority of the regional 
administrators. At the Regional level, these planners will coordinate 
the development of coordinated Federal, State, and local operational 
plans to guide response activities and help build a national culture of 
preparedness. The operational planners will also facilitate/conduct 
regional evacuation planning.
            Gap Analysis Initiative
    One of the major planning accomplishments in 2007 was the GAP 
Analysis Initiative, which was developed in coordination with the State 
of New York Emergency Management Office/New York City Office of 
Emergency Management, and implemented in spring 2007. This project 
provided FEMA and its partners, at both the State and local levels in 
the hurricane-prone regions of the country, with shared visibility of 
asset and capability gaps to determine the level of Federal support 
potentially needed in responding to a Category 3 hurricane. This 
information would better ensure FEMA and Federal support to States 
exactly as they needed it.
    During 2007, FEMA worked closely with each of the 18 State 
emergency management communities in hurricane-prone areas, as well as 
the District of Columbia, Puerto Rico, and the U.S. Virgin Islands, 
using a consistent set of measures and tools to evaluate strengths and 
vulnerabilities. We incorporated seven critical areas in the initial 
application of the GAP tool for review: debris removal, commodity 
distribution, evacuation, sheltering, interim housing, medical needs 
and fuel capacity along evacuation routes. Our initial use of the GAP 
concept, which proved to be successful in the 2007 hurricane season, 
will be expanded to cover all hazards and applied nationwide in fiscal 
year 2008.
    In fiscal year 2009, FEMA's Disaster Operations Directorate (DOPS) 
will continue to work within FEMA and with State partners to develop 
local, State, and regional operational plans, including incident-
specific catastrophic plans that cover the range of prevention, 
protection, response, and recovery activities for that incident. It 
will support the development of operational planning capabilities at 
all levels of emergency management, and operational planning for the 
National Planning Scenarios. We will also continue to increase national 
readiness for site-specific catastrophic events, using scenario-driven 
plan development processes and supporting the development of vertically 
and horizontally integrated Catastrophic Response Plans using NIMS and 
the NRF construct.
            Incident Management Assistance Teams (IMAT)
    In accordance with PKEMRA, FEMA is developing Incident Management 
Assistance Teams (IMAT), a next generation of rapidly deployable 
interagency national and regional emergency response teams. These new 
teams will eventually replace existing Emergency Response Teams (ERT) 
at the national and regional level and the Federal Incident Response 
Support Teams (FIRSTs). The IMATs are designed to provide a forward 
Federal presence to better manage and coordinate the national response 
for catastrophic incidents.
    The national teams will have the capability to establish an 
effective Federal presence that can support the State within 12 hours 
of notification, coordinate Federal activities and provide initial 
situational awareness. Teams will be self-sufficient for a minimum of 
48 hours to augment potentially scarce local resources. They will be 
staffed with a core of permanent full-time employees, unlike the ERTs, 
which are staffed on a collateral duty basis. The teams will be fully 
compliant with NIMS and Incident Command System (ICS) principles and 
will train and exercise as a unit. When not deployed, the teams will 
train with Federal partners and provide a planning, training, and 
exercise capability to help improve State and local emergency 
management capabilities. The teams will also engage in consistent and 
coordinated relationship-building with State, local, tribal, and other 
stakeholders.
    Currently, one National IMAT is operational and ready to respond to 
any disaster. Three Regional IMATs are planned to be operational by 
June 2008, the official start of the hurricane season.
            Emergency Communications
    FEMA is also improving disaster emergency communications and 
interoperability capabilities. FEMA will be ready to rapidly and 
effectively respond to protect people and property, to ensure the 
adequacy of the Agency's own emergency communications capabilities, and 
to help our State, local, and tribal partners develop or sustain their 
capabilities.
    Under the new FEMA re-organization, DOPS has also created a 
Disaster Emergency Communications Division. The new division will 
improve the agency's tactical disaster emergency communications and 
interoperability capabilities to support all-hazards disaster response 
and national security emergency requirements. We are in the process of 
advertising and filling new positions to stand up this new division.
Improving Management of Logistics
    Delivering the right material, to the right place, at the right 
time is one of the most critical missions FEMA coordinates and 
performs. In April 2007, FEMA elevated its logistics function to create 
a Logistics Management Division (LMD), and is developing logistics as a 
core competency. This realignment will transform FEMA's logistics 
operating capability and enhance logistics management using as a model 
the Department of Defense strategic level logistics organization.
    Following the realignment, LMD has worked diligently to strengthen 
its business processes and leverage the best practices by enhancing 
relationships with both the public and private sector through various 
initiatives for a more coordinated logistics response operation. One 
such initiative was the Loaned Executive Program. The Loaned Executive 
Program was launched as a pilot program for DHS and FEMA. Organized 
through the U.S. Chamber of Commerce and the United Parcel Service's 
(UPS) Foundation, the program was designed to bring a seasoned UPS 
executive into the LMD to share private-sector expertise. The valuable 
knowledge and input from the loaned executive will help the directorate 
adopt the best business practices of private-sector logistics 
companies. LMD also developed and launched the new ``National Logistics 
Coordinator'' concept, which favorably enhanced coordination and 
execution during the preparations for Hurricane Dean, and responses to 
the California wildfires, Midwest ice storms and the West Coast winter 
storms.
    Overall, LMD has contributed significantly to FEMA's forward 
leaning posture by putting in place contracts and interagency 
agreements (IAA) that provide an enhanced logistics capability such as:
  <bullet> Logistics Management Transformation Initiative;
  <bullet> Total Asset Visibility to track supplies in transit;
  <bullet> National bus evacuation readiness;
  <bullet> Ready meals and water (IAA with the Defense Logistics 
        Agency);
  <bullet> Base camp support contracts;
  <bullet> Single point ordering and tracking for Regions;
  <bullet> Supplies and services (IAA with the General Services 
        Administration);
  <bullet> Vehicle drivers and fleet management;
  <bullet> Vehicle maintenance.
    Moving forward, in fiscal year 2009, the LMD will upgrade National 
Distribution Centers (DCs), which are at the core of FEMA's Supply 
Chain Transformation effort and are essential to FEMA's fundamental 
readiness mission. Strategic positioning of national-level assets at 
DCs enables a proactive readiness approach that relies on stocking the 
most critical disaster support life-saving and life-sustaining assets 
at levels required for immediate distribution to disaster victims. The 
``new FEMA'' warehousing strategy will provide the capacity and 
flexibility to respond effectively and efficiently to the full set of 
disaster scenarios.
    Moreover, in fiscal year 2008/9, LMD plans to pilot test the 
transformation of logistics management of supplies and services by 
further engaging the private sector and incorporating industry best 
practices. In an effort to improve business practices, the LMD has 
spearheaded a Distribution Management Strategy Working Group, with our 
Federal, private and NGO logistics partners, to conduct a comprehensive 
analysis to develop an approved distribution and supply chain 
management policy. Current contributing members include the Defense 
Logistics Agency (DLA), General Services Administration (GSA), Health 
and Human Services (HHS), United States Northern Command (USNORTHCOM), 
United States Army Core of Engineers (USACE), Food and Nutrition 
Service (FNS) and Forest Service within the United States Department of 
Agriculture (USDA), and the American Red Cross (ARC).
    The analysis includes rightsizing inventory levels and determining 
the most effective strategic supply and service locations in order to 
transition into a regional support strategy. The Working Group is 
considering all critical distribution and supply chain management 
criteria in developing and executing a coordinated Plan of Action to 
establish an integrated distribution management strategy for the 
National Response Framework. Until this analysis is complete, there are 
no plans to develop additional permanent distribution centers.
Improving the Nation's Alert and Warning Systems
    The National Continuity Programs Directorate (NCP), FEMA's arm for 
building and sustaining the national continuity of operations programs, 
including national alerts and warnings, has made significant progress 
in providing continuity guidance and support to Federal, State, and 
local governments nationwide over the past few years. The NCP is 
focusing on efforts to augment the existing Emergency Alert System 
(EAS) with the Integrated Public Alert Warning System (IPAWS), to 
leverage newer communication technologies to improve the Nation's 
ability to provide warnings and alerts.
    EAS was put in place in 1994 to replace the Emergency Broadcast 
System (EBS), which launched in 1963. In June, 2006, President Bush 
issued Executive Order 13407 (``Public Alert and Warning System ''), 
establishing the U.S. Government's alert and warning policy and 
directing a series of actions meant to improve and modernize the 
Government's ability to communicate rapidly with the American people. 
The EAS will allow the President to transmit a national alert to 
citizens within 10 minutes, and it allows State and local government 
officials to send messages during non-Federal emergencies. IPAWS will 
leverage digital and satellite technology to expand alerts and warnings 
from audio to new communication mediums, including text and video 
available over radio, television, telephones, cell phones, and e-mail.
Preparing the Nation For All Hazards
    On April 1, 2007, FEMA renewed its focus on building a culture of 
preparedness through its integration of the National Preparedness 
Directorate (NPD), an expanded Citizen Corps Program and coordinated 
activities with Ready.gov and the Department of Homeland Security. NPD 
has played an integral role in coordinating several major preparedness 
initiatives, such as Top Officials 4 (TOPOFF 4), hiring the newly 
created Federal Preparedness Coordinators (FPC), and the development of 
national preparedness and response documents.
    In January 2008, NPD coordinated the release of the National 
Response Framework (NRF), the successor to the National Response Plan 
(NRP). The NRF establishes a comprehensive, national, all-hazards 
approach to domestic incident response and incorporates many NRP 
elements and lessons learned. Incorporating input from hundreds of 
individuals, organizations, and governmental partners, the NRF provides 
clear guidance on the integration of community, State, tribal, and 
Federal response efforts.
    Moving into fiscal year 2009, NPD will improve coordination of 
national exercises with State exercises, and will implement--for the 
first time--a national planning system that will bring consistency to 
contingency plans at the local, State and Federal level. By focusing on 
planning, exercising and evaluations, and more focused applications of 
grant funding, NPD will measurably lead the Nation to a higher level of 
preparedness.
    With the realignment of the Department mandated by PKEMRA, FEMA is 
now responsible for managing billions of dollars in grants that build 
the Nation's homeland security capability. To support this new 
responsibility, FEMA created a new directorate. FEMA's new Grants 
Program Directorate (GPD) is working within the greater emergency 
management framework to make sure we are getting the best value for the 
investment. In fiscal year 2006, GPD awarded approximately $3 billion 
in total grant funds. Since 2003, the Department of Homeland Security 
has invested over $23.7 billion in critical funding to our Nation's 
homeland security community.
    During the same time period, GPD was able to improve and build upon 
relationships with subject matter experts on grant guidance; including 
TSA, USCG, Infrastructure Protection, and the intelligence community. 
As a result, in fiscal year 2008, FEMA was able to narrow the focus of 
grant guidance to better target the application of grant dollars to 
align with National Priorities and target capabilities established by 
the National Preparedness Guidelines, approved by the President 
September 2007.
    In fiscal year 2009, FEMA will update the Homeland Security State/
Urban Areas Strategies, as necessary, and refine and implement the 
funding allocation methodology based on risk analysis and anticipated 
return on investment. The Assistance to Firefighters Grant Program will 
begin to collect and use performance measure data to improve program 
effectiveness. GPD will continue to track State and local grant 
administration and spending at the State and local level and add 
additional grant programs to the Grants Reporting Tool as necessary.
    By working with States and major urban areas, refining grant 
guidance, and focusing more directly on the expected return grant 
investment, these grant programs will continue to increase our Nation's 
capability to prevent, protect against, and if necessary, respond to 
and recover from acts of terrorism.
Strengthening FEMA's Regions
    One of FEMA's primary reforms made and implemented during 2007, was 
empowering and increasing the capability and capacity of its regions. 
As the point of interface with States strengthened, FEMA Regions are 
essential to deliver on the promise of New FEMA.
    One of the most significant initiatives that gives us tremendous 
value added, is the new package of blended capability in the form of: 
Federal Preparedness Coordinators (FPC), Regional IMATs, and enhanced 
Regional Response Coordination Centers (RRCC). Moreover, FEMA has stood 
up Grants Management Branches in all 10 Regional offices and has 
embedded 20 new Grant Management Specialists in the Regions to manage 
EMPG, MMRS, and Real ID grants. The Regions are also strengthening 
their ties to partners by the establishment of a Regional Advisory 
Committee and Regional Emergency Communications Working Group. Both of 
these new entities greatly expand the opportunity to communicate and 
exchange ideas with key constituency groups.
    The following are just a few highlights of FEMA Regional Offices 
accomplishments and initiatives:
  <bullet> In 2007, Regions I, V, VI, IX, and X provided extensive 
        support to their respective Federal Executive Boards. Solid 
        partnerships have been created with leadership from the boards 
        in Hawaii, Los Angeles, and San Francisco, as well as across 
        New England, Texas, the Midwest and Northwest. Each board has 
        established active Continuity of Operations Planning Working 
        Groups supported by membership from representative department 
        and agencies.
  <bullet> The regional Pacific Area Office, in coordination with the 
        FEMA Logistics Division and Hawaii State and County Civil 
        Defense, successfully completed deployment of the DHS Pre-
        Positioned Disaster Supplies Program. Regional actions resulted 
        in the pre-positioning of the 500-person containers and home 
        recovery kit containers on Oahu, Kauai, Maui, and the Big 
        Island.
  <bullet> In July 2007, FEMA Region X successfully established an 
        Alaska Area Office, as required in PKEMRA. The office is 
        integrated into the Regional operation and provides for 
        situational awareness in Alaska and enhanced capability to 
        conduct effective pre- and post-disaster response activities.
  <bullet> Region IV Operational Planners participated in the launch of 
        several catastrophic planning initiatives, including the 
        Florida Catastrophic Planning scenario, the New Madrid Seismic 
        Zone, 2007 hurricanes, critical transportation needs planning 
        for Gulf Coast mass evacuation, and pandemic influenza.
Improving Our Core Capacities
    FEMA's mission and the expectations of performance and need for 
21st century business practices for the Agency have substantially 
changed in the Post-Katrina environment. In response to PKEMRA and 
post-Katrina lessons learned, FEMA has institutionalized various 
organizational and functional reforms. To ensure FEMA's mission 
success, the Agency immediately began to set the ground work to 
implement the suggested and mandated reforms. One major step taken was 
to realign its administrative functional areas to better hone its 
business practices, enhance its customer services and improve its 
processes and informational services infrastructure and professionalize 
and grow the permanent workforce.
    In fiscal year 2007, FEMA stood up its Office of Management (OM) to 
unify and integrate several disparate internal service providers to 
synchronize their efforts and increase overall administrative program 
effectiveness, efficiency and cohesiveness, while preserving and 
advancing service delivery. The new Office of Management oversees FEMA 
primary administrative functions, including: Acquisitions Management, 
Disaster Reserve Workforce, Human Capital, Information Technology, 
Facilities Management, Records Management, and Security. The following 
are some of the measures OM has taken since Hurricane Katrina to 
address issues internal to the agency that needed to be improved:
            The Office of Acquisition Management is strengthening our 
                    capacity to contract for goods and services.
    FEMA's Office of Acquisition Management (OAM) has made considerable 
strides in improving the contract management and oversight aspects of 
its acquisition duties. FEMA has implemented new policies and 
requirements on its acquisition workforce, such as improved advanced 
planning, accurate documentation, workforce training, increased 
emphasis on market research and greater consideration of small business 
goals. FEMA can boast that during fiscal year 2007 about 81 percent of 
its acquisition dollars were competed. This represents a 45 percent 
increase over fiscal year 2006, when only about 35 percent of FEMA's 
acquisition dollars were competed. There were three main areas of 
improvement which led to the above success.
    Institutionalized the use of Contract Administration Plans (CAPs) 
to facilitate efficient and effective contract administration and 
improve the agency's post-award contract execution. CAPS also promoted 
task order competition while ensuring that services are available 
expeditiously to meet critical disaster response needs, while 
establishing consistent enterprise-wide contract administration 
processes for the Contracting Officer's Technical Representatives 
(COTR) in various regions. It also documented the agreements between 
program offices and OAM and serves as a guide for continual actions 
related to a contract administration.
    Established a Contract Officer's Technical Representative (COTR) 
Program Office to ensure COTRs have the training, support, and tools 
needed for effective contract administration. This included the 
implementation of a tiered COTR certification program to better match 
COTR competencies to contract complexity and ensuring COTR compliance 
with DHS and Federal regulations and policy while leveraging best 
practices.
    Published the Emergency Acquisition Field Guide, which will ensure 
that non-1102 (contract specialist) personnel can effectively and 
appropriately contract for goods and services in an emergency 
situation. The guide defines the critical elements of an emergency 
acquisition in plain language so that any member of the disaster 
support team can understand and apply proper procedures. It includes 
information on purchase cards, program management, and contracting.
            The Human Capital Division is ensuring that FEMA has the 
                    right staff.
    In 2007, FEMA's Human Capital Division (HCD) took on the daunting 
challenge overcoming previous staffing and retention impediments, 
optimizing its workforce, improving professional development and 
training programs, and streamlining HCD processes through technology 
solutions. At the close of fiscal year 2007, FEMA had filled 96.5 
percent of its authorized PFT positions. The FEMA Hiring Team was 
honored with the Secretary's Award for DHS Excellence for its 
outstanding contributions toward achieving FEMA's 95 percent hiring 
goal by June 2007.
    Before Hurricane Katrina, FEMA had an authorized permanent full-
time staff of 2,200, however, the number of employees actually on board 
had dropped, in the aftermath of Katrina the approximate number of 
permanent full-time employees dropped to 1,500. Currently, FEMA has 
approximately 3,200 employees with an expected total of approximately 
4,300 permanent full-time employees by the end of fiscal year 2009. 
FEMA's goal is to meet or exceed 95 percent of its fiscal year 2008 
authorized staffing level by the end of fiscal year. To do so, FEMA has 
chosen to employ some new recruitment techniques to bring in the best 
and the brightest to our agency. We are also using staffing services to 
hire some specialized positions.
    FEMA will also improve and develop steps to measure on-boarding, 
talent management, and developing a corporate footprint on all 
employees. With these new processes, FEMA will be able to hire faster, 
have employees trained and ready to perform, and will have an ongoing 
snapshot of its talent and workforce needs.
    To support our hiring efforts, in mid-2007 Congress gave approval 
to FEMA to convert approximately 110 of our Cadre of On-Call Response 
Employees (CORE) positions to Permanent Full Time (PFT) positions. 
Another 390 will be converted in fiscal year 2008 with the remainder 
converted in fiscal year 2009. As a result of this and other efforts, 
FEMA has been able to achieve a steadily increasing net gain in 
Permanent Full-Time (PFT) employees since fiscal year 2005. In fiscal 
year 2007 alone, FEMA acquired 398 new PFTs, resulting in a net gain in 
100 PFT employees for fiscal year 2007. This was a drastic improvement 
from the net loss of 97 PFTs in fiscal year 2005.
            The Information Technology Services Division is bringing 
                    FEMA systems into the 21st Century.
    FEMA's information systems are the tools that enable every mission 
and business process for the Agency and serve as the primary building 
blocks for New FEMA. To this end, FEMA is developing and plans to 
deploy a consistent architecture that will support information 
integration for the Agency. By employing new technologies to enhance 
capabilities and efficiencies of service, FEMA will strengthen and 
unify its operations and management.
    FEMA's Information Technology and Services Division (ITSD) has 
begun the process of modernization and upgrades to improve information 
sharing and functionality between six of FEMA's critical systems: 
National Emergency Management Information System (NEMIS), Logistics 
Information Management System (LIMS-III), Automated Deployment Database 
(ADD), Total Asset Visibility (TAV), Integrated Financial Management 
Information System (IFMIS), and the Acquisition Management System 
(PRISM).
    In addition, the complete transition of preparedness programs into 
the FEMA IT system is currently underway, and, to date, we have 
successfully migrated the legacy Grants & Training IFMIS and Payment & 
Reporting System (PARS) from the Office of Justice Programs (OJP) to 
FEMA. A plan has been recently completed that will support and guide 
critical IT improvements with the following strategic goals in mind: 
(1) To stabilize and integrate IT assets across the agency; (2) to 
secure the IT environment; (3) to network the agency; (4) to evolve to 
a ``service-forward'' organization; and (5) to establish supporting IT 
policy and governance structure. Once the goals of this plan have been 
reached the FEMA IT systems will be more robust and allow for more 
advanced business practices that will gain efficiencies in program 
offices across the agency.
    In fiscal year 2009, FEMA will begin a transition of IT systems and 
financial resources to the Office of the Chief Information Officer 
(OCIO) and continue initiatives such as deployment of a fully compliant 
electronic records management system; improve help desk efficiency by 
monitoring both workflow and management escalation; begin Advanced 
Computer Technology Integration (CTI) system deployment for the 
Advanced Contact Center Network; and improve the Disaster Housing 
Inspection Management System security to overcome the vulnerability and 
risks of using tablet computers in the field that carry personal 
identification information.
                               conclusion
    Today, I have been able to give you a glimpse into the ``New 
FEMA'', and to highlight a handful of examples of the sea of change 
that is post-Katrina, post-Rita FEMA. The public has increasingly seen 
a FEMA that is more able to respond, and a FEMA that better promotes 
and coordinates continued enhancement of preparedness in the United 
States. Our objective is to regain the trust and confidence of the 
public and our partners through consistently excellent service.
    For the remainder of my tenure, I will work to ensure FEMA 
continues to be an empowered agency. Each day FEMA will be better able 
to meet the needs of the American people, both as we heighten 
preparedness, respond more capably, and lead effectively during the 
recovery and mitigation phases. This agency has already improved 
tremendously since my first day on the job. With the support of the 
skilled and resolutely dedicated FEMA team, I am confident FEMA will 
continue to improve. My successors and America will be in a far better 
position because of their work.
    In the past year, FEMA has been able to respond rapidly and 
effectively to the disasters we have encountered. We are more nimble 
and responsive than we were last year when I appeared before the full 
committee. While we have not faced another catastrophic disaster, I am 
confident in saying that we are ready to perform effectively and 
efficiently during whatever circumstance we may face, catastrophic or 
otherwise. I appreciated the opportunity to appear before you today. 
Thank you.

    Mr. Cuellar. Thank you for your testimony.
    I would like to remind each member that he or she will have 
5 minutes to question the witness.
    I now recognize myself for questions.
    My first question has to do with transition. As I mentioned 
a few minutes ago in my opening statement, we want to make sure 
that, as there is a change in administration, whoever that 
person might be, is that we establish sound policies and 
procedures to ensure that qualified professionals stay in place 
to prevent, detect and respond to threats that face our Nation.
    Has FEMA prepared a transition plan? Well, first of all, do 
you all have a transition team in place? No. 2, have you all 
prepared a transition plan?
    Mr. Johnson. Mr. Chairman, thank you for that question. I 
appreciate looking at the transition and how that will impact 
FEMA, and we have been very concerned with it as well.
    Inside FEMA we do have a transition team, and Dave Paulison 
has already identified Nancy Ward, who is our regional 
administrator in region IX, as a senior career official who 
will lead FEMA during the transition until a new administrator 
is nominated and confirmed.
    One of the strengths in our growth in FEMA is the 
acquisition of more SES positions. We gained 10 SES just in 
this past year, which is the quota of the Department, and we 
now have a senior career civil servant behind every political 
appointee. We are working very, very hard to bring in this new 
group of SESs who own the programs that we have talked to you 
about and to make sure that during the transition those will 
continue at the same pace that we started and in the same 
direction.
    Mr. Cuellar. Okay. Staffing, I think prior to Hurricane 
Katrina, FEMA had nearly 1,700 permanent full-time employees. 
Today, the new FEMA has nearly 3,000 and is authorized over 
4,000 for fiscal year 2008. What are the biggest challenges to 
staffing up FEMA, that is, trying to find the right expertise 
that is necessary to do your job to find it for those 
particular vacant positions?
    I think we think you all have the added challenge of 
filling over 1,000 vacancies by September, so could you give us 
a status on the staffing and making sure that we hire the right 
people with the right expertise to do the job?
    Mr. Johnson. Mr. Chairman, I think the most important 
element in growing and achieving new FEMA is to increase the 
size of FEMA. When Dave Paulison came in as the administrator, 
you are correct, we had about 1,500 permanent, full-time people 
in FEMA, and with the help of the Congress and the budget 
submitted by the president, we have the chance to get 4,007 by 
the end of this fiscal year. That is a sizable growth.
    We are focused very hard every week on how we are hiring 
those people. We received through PKEMRA different 
authorizations for incentives to use in hiring and relocation. 
We are using every one of those incentives, and we are focusing 
our staffs on just the process of the Federal Government to 
hire people.
    Every other Thursday we have a staff meeting, and we have a 
chart, and I would hold every directorate accountable to find 
out where they are in their hiring processes and what their 
level of vacancies are. We have mapped out the process so I can 
tell whether it is the directorate that has got a problem, the 
H.R. system that has got a problem or it is just time in the 
queue of waiting for people to apply for a position. So we stay 
focused every 2 weeks to see what our progress is, and our 
objective is to be at 95 percent staffing again by the end of 
this summer.
    Some of the challenges are just that a lot of people want 
to come to FEMA. We once held a--in our building, we held an 
open sign-up, and 500 people came to apply for 45 positions. So 
it is not for lack of getting people to apply, but it is a 
process of getting through the Federal system, getting secured 
clearances done and those requirements.
    I might add that we have also gone to a headhunter firm to 
hire some of our senior people. It is not good enough just to 
put an ad on the street. We need to go out and find the right 
people for FEMA. We are about to name a senior executive 
service member to lead our National Integration Center, and we 
found him in a State where he was a recently departed homeland 
security advisor. He has a Ph.D. and has a link with a major 
university in the Midwest. That is the caliber of people, 
leaders, that we are going to bring in as career civil servants 
into FEMA.
    Mr. Cuellar. Very good. My last question is on citizen 
preparedness. Again, this is something that is important. As 
you know, we probably will be filing legislation--I mean, we 
will have a bill to formalize this program. One of our things 
we have looked at is funding, not having sufficient funding. 
Could you tell us what you all are doing on the citizen 
preparedness effort, because we are going to be hopefully 
passing this bill soon, at least marking it up, should I say.
    Mr. Johnson. Well, Mr. Chairman, we would certainly welcome 
that legislation to make permanent our citizens preparation 
staff, citizens advisory committees. That is a huge return on 
investment. For a few dollars, to reach out to communities 
across America and to tie them in closer and to be individually 
prepared as citizens for disasters is very, very helpful to all 
of us.
    One of FEMA's challenges is to meet the almost unachievable 
expectations of the American public for service from FEMA, and 
I think that our citizens staffs can help us in that regard as 
well to recognize what their roles and responsibilities are and 
what they should expect from their local government, from the 
State government and from the Federal Government.
    We have a strong staff, a small staff but a strong staff 
that are highly motivated to reach out to all of our regions, 
to all the communities and to tie together all of those 
volunteer groups.
    So we would certainly welcome that legislation.
    Mr. Cuellar. Okay. Thank you.
    At this time, I would recognize the Ranking Member, the 
gentleman from Pennsylvania, Mr. Dent, for questions. Thank 
you.
    Mr. Dent. Thank you, Mr. Chairman.
    Thank you, Mr. Johnson, too, for being here as well.
    Recently, the State of Colorado announced that they had 
hired a permanent State-wide interoperability communications 
coordinator, highlighting the importance of--at least at the 
State level--for specific attention to this whole issue of 
communications operability, interoperability, et cetera.
    Could you provide an update regarding FEMA's efforts to 
ensure and improve the ability to communicate during disaster? 
Everybody on this committee, and in other committees, are 
constantly talking about interoperability, and there have been 
tremendous amounts of moneys invested in that. Where do you see 
us standing on that today?
    Mr. Johnson. I think that when we look at the grant funding 
the first category of grant funding out of the billions of 
dollars is focused on planning, which we think is appropriate. 
The second category that spends the most money is on 
communications, which we think is also appropriate.
    In FEMA's role, we are looking at interoperable 
communications at the first responder level. How can we ensure 
that the emergency operation centers, command centers, our own 
joint field offices have good interoperability, and how can we 
ensure that first responders themselves are able to communicate 
during a disaster?
    For last year's hurricane season, we went to each of the 18 
hurricane impact States, the District of Columbia to the Virgin 
Islands and Puerto Rico with specific communications teams and 
sat down with them and worked through a communications plan, a 
communications architecture and a gap analysis to see what they 
had for the hurricane season to ensure that among themselves, 
with the State and with the Federal Government they could 
communicate very well.
    That was a very successful effort, and we are building upon 
that for this coming hurricane season. We were able to identify 
specific gaps, and then in our grant guidance for the 2008 
season we were able to write in specific grant guidance that 
would direct Federal dollars to solve those gaps.
    So I think we are doing a good job of reaching out at the 
grassroots level, not dealing at the high level with strategic 
thinkers but who is really communicating and to work with them 
to build this communications networks.
    Mr. Dent. As part of that overall architecture you just 
described, has FEMA been working closely with the Office of 
Emergency Communications within the NPPD to ensure that there 
is interoperability among personnel at all levels?
    Mr. Johnson. Yes, sir, we have. I think that that is a 
relationship with NPPD, particularly with the Office of 
Emergency Communications, that is just strengthened, perhaps 
more so in the last few months than it has over the last year.
    For example, ESF 2, emergency support function 2, is a 
communications support function for a disaster. We recently 
partnered with NPPD to completely rewrite that emergency 
support function and clarified our roles and responsibilities.
    As I mentioned, FEMA's primary focus is first responder 
communications, and OEC's primary focus is dealing with 
industry for national level systems, telephone systems, other 
communications systems. So I think we have done a very good job 
to, sort of, stake out our lanes in the road and then work in a 
complementary fashion to achieve interoperability, whereas 
before I think there were opportunities where we perhaps had 
some confusion in roles. But that is a far better alignment 
than I think we have experienced in a long time.
    Mr. Dent. Well, I think you just answered my question, and 
you are actually working very closely to improve the ESF 2 
initiative. That is good to hear.
    I will shift focus now away from communications to 
evacuation planning. There is really no single office at FEMA 
that is responsible for Federal evacuation planning and 
operational efforts. As you are aware, the responsibility 
resides in many offices--including logistics, disaster 
operations and disaster assistance as well as the Office of 
Acquisition Management.
    How are you ensuring that the evacuation planning is 
coordinated across all these offices?
    Mr. Johnson. Yes, sir. I think that is true, and I think 
even to my opening statement about new FEMA, old FEMA would 
have had a bunch of silos. That would have been a particular 
issue. At new FEMA, we do work much better laterally, across 
our directorates, because each does have a significant role, 
and we want to make sure they don't overlap each other.
    What we are doing specifically, again, in preparation for--
we did it in the hurricane season. We had a gap analysis that 
now we are taking Nation-wide in all of our regions and we have 
identified six primary factors where we must succeed in order 
to be successful at a Federal, State and local level for 
disaster response, evacuation being one of those.
    So our gap analysis tool allows us to look from a disaster 
operations perspective, disaster assistance and logistics, the 
prime players, and what do they each bring to the table and how 
do they relate then to local communities, to the State to 
fulfill that requirement.
    Last year, we found that there were gaps in some States 
that have an evacuation plan, and, more specifically, there 
were gaps in special needs evacuation. We were able to write 
into the gap guidance for the EMPG Grant Program this year 
specifically to require States to spend their grant funding to 
improve those evacuation plans. So I think we were able to 
recognize a problem, assess it on a systematic scale and then 
direct resources to help solve that problem.
    Mr. Dent. Finally, on that same vein, what has been done at 
the State and local level to essentially ensure that 
communities near these major urban areas that would likely be 
evacuated--are you working with States--are capable of 
receiving these evacuees? I mean, it is important that we talk 
about evacuation, clearly, from wherever the point of the 
incident is, but I worry about major incidents in a major 
metropolitan area and the receiving communities. Are we 
focusing on that at all?
    Mr. Johnson. We are, sir. We used our hurricane plan last 
year to build a template for how should we approach that. For 
example, we had a plan to move 4,000 people from New Orleans by 
Amtrak to Memphis, Tennessee. When they arrived in Memphis, 
working with the State and with the Red Cross, the local 
counties, we knew exactly what shelter they were going to go to 
and what transportation they would use to get from the train 
station to a safe shelter, back to the train station and back 
to New Orleans.
    We used that same template in Memphis, we used it in 
Atlanta, we used it in Houston, and we used it in Little Rock 
so that we could evacuate enough people out of the Gulf Coast 
in a category three or four storm.
    That process has now been institutionalized, and we are 
able to take that through all of our regions and look at the 
exact same issue, in particularly dense, urban areas. How do we 
move people out, where do they go, and how do we make sure that 
they know where they are going and how they are going to be 
treated when they arrive?
    Mr. Dent. My time is up, but at some point I would be 
interested to see how you have institutionalized this process 
and could help those of us in the Northeast, particularly from 
potential evacuation from the New York metropolitan area or 
from this capital region. I would like to see how you would 
develop those plans.
    Mr. Johnson. Yes, sir.
    Mr. Dent. Thank you.
    Mr. Johnson. Our national capital region plan, by the way, 
is a place where we need to apply that. We have an evacuation 
plan, but we need greater detail to it.
    Mr. Dent. Thank you.
    Mr. Cuellar. Thank you, Mr. Dent.
    At this time, the Chair will recognize other members for 
questions they may wish to ask the witness. In accordance with 
our committee rules and practices, I will recognize the members 
who were present at the start of the hearing based on seniority 
of the subcommittee, alternating between the majority and the 
minority. Those members coming in later will be recognized in 
the order of their arrival.
    The Chair now recognizes for 5 minutes the gentlewoman from 
the Virgin Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for having this hearing.
    Admiral Johnson, when we were setting up the committee and 
doing the first reauthorization for the Department, I had a 
question about whether State included State and territories, 
and you mentioned the small State advocates, so I wanted to 
know if that small State advocate also was responsible for 
territories, since we are all small, and also how does that 
person relate to the region, because, normally we would go to 
our regional head with different issues?
    Mr. Johnson. Our small State rural advocate is focused on 
all small States, territories and rural areas, including Puerto 
Rico, the Virgin Islands and the District of Columbia. Brock 
Bierman is the appointee who has that role, and his primary 
value is, how can he look at the processes that we use and do 
these processes fairly recognize the particular interest and 
the particular circumstances of small States and rural areas?
    He does get out in the field and has traveled to see some 
of those issues, but, most importantly, is how do our processes 
work. So how can we affect the whole system as opposed to 
trying to solve that one disaster or one issue at a time? So I 
think he is giving a fair look at that.
    Inside our declaration process, we are currently 
reevaluating the declaration process. We have worked with NEMA, 
for example, asked comments on that, and within the next month 
we will be able to talk about changes in that process. But one 
of the areas of focus is specifically to see how we can better 
accommodate those concerns for small States, for territories 
and rural areas.
    Mrs. Christensen. Okay. Thank you.
    In the old FEMA, we had a project called, Project Impact, 
that the Virgin Islands had really participated in, and I 
thought it was a great preparedness project, it involved the 
community, it supported mitigation with funding, and it set up 
processes, for example, with businesses so that we wouldn't be 
faced with a situation in a disaster where the businesses are 
trying to help and there was no mechanism to set up, as 
happened in the Gulf.
    Is there a similar program in FEMA now, and--well, is there 
a similar program in FEMA now with funding?
    Mr. Johnson. I have to tell you that I am not familiar with 
the program, so if I could look into that, I can get back to 
you later on that.
    Mrs. Christensen. Okay. Okay, thank you, and I look forward 
to that--I expect that we will be submitting questions in 
writing?
    Mr. Cuellar. That is correct.
    Mrs. Christensen. Thank you.
    In going through and preparing for this, we understand that 
95 percent of your positions are filled?
    Mr. Johnson. No, ma'am. We are currently at about 78 
percent. We are on a glide path to get to 95 percent. Last 
year, we maintained 95 percent from June until the end of the 
fiscal year. We were fortunate in the budget process to gain 
almost 500 new positions for this fiscal year, and so, of 
course, the baseline was elevated and our percentage dropped.
    But, as I mentioned, we have a glide path. I pay personal 
attention to it every 2 weeks and hold our senior leaders 
accountable so that we can get back up to the staffing that we 
need to be.
    Mrs. Christensen. Well, FEMA always had many temporary 
employees who came and worked, went around the country working 
in disasters and had a lot of experience, and I was wondering, 
in filling your positions, your permanent positions, did you 
reach back to some of those temporary employees that had the 
experience or did you bring on new people with no real FEMA 
experience?
    Mr. Johnson. I will give you the positive answer, and I 
will give you the concern that you will hear as well. No. 1 is 
that when we have these new positions we do want our core 
employees and DAE employees to apply for those positions. They 
do have years, and sometimes decades, of experience in exactly 
that position.
    Mrs. Christensen. Yes.
    Mr. Johnson. By the Federal Personnel Management System, it 
has to be a competitive hire. We can't do a direct hire from a 
DAE or a core individual into a permanent position. So it is 
the case where they have to compete, and when they do compete 
there are sometimes preferences and other issues that come into 
play. So some are concerned that they don't always have an easy 
path to get that permanent job.
    We are taking a look at that. We are discussing it with OPM 
to see if there isn't some way that we can make that a little 
bit assured. So it is an issue. It does happen, and we like it 
when it occurs, but it is an issue.
    Mrs. Christensen. Thank you.
    I expect we will have another round, and my time is almost 
up, Mr. Chairman.
    Mr. Cuellar. All right.
    At this time, the Chair recognizes for 5 minutes the 
gentlewoman from the District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Thank you 
for affording us the opportunity for this review ahead of the 
hurricane season and as we try to evaluate where FEMA has come.
    Mr. Johnson, as you are aware, the subcommittee that I 
chair has principal jurisdiction over FEMA for natural 
disasters and wrote the Post-Katrina Act. The principal part of 
that act was the National Response Framework. We had quite an 
ordeal with the National Response Framework.
    We had a hearing on the National Response Framework after 
there was an outcry from local and State emergency officials 
that the framework did not meet their concerns. It was very 
disturbing considering that the National Response Framework was 
designed to meet the Post-Katrina or the specific Katrina 
challenges.
    We looked at what you produce. It does seem to me that what 
was produced after you heard the criticism and met with local 
and State officials were satisfactory.
    Now, I need to make sure that the National Response Plan is 
not just a piece of paper. You have discussed the hurricane 
plan. I would like to know how the National Response Plan 
operates, if it does, to help in coordinating for the hurricane 
season.
    Mr. Johnson. Yes, ma'am. I do acknowledge our hearings with 
you on the National Response Framework, and I have to say, 
again, I think that your hearing itself, your personal 
involvement outside the hearing process, your staff was very 
helpful in making sure that in fact that in that process that 
we did listen more intently to State and local interests. I 
think, as you comment, the reaction to the National Response 
Framework has been very, very positive.
    In terms of looking ahead, we are doing a lot to roll out 
the National Response Framework, and I would be glad to provide 
separately to you what steps we are taking to roll that new 
framework out. For example, the new course, the 900 level 
course on the NRF, and already thousands of people have taken 
that course to learn more about what the new framework is and 
how to use it.
    For the hurricane season, we are about to sign a memo that 
will pre-designate our Federal coordinating officers for every 
State--the 20 hurricane impact States, for the Virgin Islands, 
Puerto Rico, District of Columbia--so you will know who the 
leader is in advance, and they will start very quickly, and 
many already have, reaching out to the State emergency manager 
and making those personal relationships in advance of a storm.
    The States have been very welcomed with the National 
Response Framework. They have identified their people who would 
be in a joint field office. So I think all of the processes 
that we described will play out in good form, with good 
compliance this coming summer.
    Ms. Norton. I am pleased to see the plan is being used, Mr. 
Johnson.
    Now, you mentioned coordinating officials. You know I am 
going to ask you about the running controversy that the 
subcommittee, our subcommittee, our other subcommittee and the 
full committee have had and indeed this committee also has had 
about the confusion between the so-called--this is not simply 
bureaucracy, if you will bear with me. Those of us who are not 
familiar with these two officials, it is the principal Federal 
official and the Federal coordinating officer.
    Now, the Federal coordinating officer is a statutory 
official, and that official is supposed to be on the ground for 
the Federal Government, for FEMA, in the event of a natural 
disaster. Then FEMA invented something called the principal 
Federal official, and so we were paying for two officials on 
the ground, and the feedback we got from the field was that 
these people were redundant, caused confusion.
    It got to be so bad, as you will recall, Mr. Johnson, that 
the authorizing committee asked the Appropriations Committee to 
de-fund the principal Federal official. If the point post-
Katrina was to have somebody, a point person, if you will, on 
the ground that you went to, not two people and you wonder 
which one do you go to, then we didn't see why money should be 
spent on this principal Federal official.
    Has the principal Federal official disappeared? I mean, is 
there one person on the ground in a New Orleans, when we now 
have to go to a tornado or a flood or is the shadow of this 
principal Federal official lurking anywhere?
    Mr. Johnson. Ms. Norton, I would have been disappointed had 
you not asked me a question about the PFO and the FCO.
    Secretary Chertoff personally had a hand in writing the 
language in the National Response Framework that describes the 
role of the principal Federal official that still exists and 
the role of the Federal coordinating officer. Before it was 
published, the secretary ensured that we went to the head of 
NEMA, the chairman of NEMA, the president of NEMA, and he 
personally reviewed the language and found it acceptable. We 
sought the opinions of others in the emergency management 
community who all felt that it did a far better job of 
describing what those two roles were and when they would apply.
    Ms. Norton. What is the necessity for two Federal 
officials? I mean, you are telling me that despite language in 
the appropriations, you are telling me that there still exists 
a funded principal Federal official and a Federal coordinating 
officer.
    Mr. Johnson. They both still exist but very specific and 
narrowed. For example, the NRF acknowledges that the Congress 
has directed that a principal Federal official not normally be 
assigned for a Stafford Act event, which, of course is an event 
where FEMA has the leading role. But it also recognizes in some 
non-Stafford events that FEMA will have a role there as well.
    For example, in TOPOFF 4, which was an IED attack, FEMA led 
a response organization with our Federal coordinating officer. 
So it does a much better job of laying out when there is a PFO, 
it will only be in the most catastrophic or complex events.
    Secretary Chertoff has shown a lot of personal restraint. 
He has never assigned a PFO after Katrina. With hurricanes, 
with the California wildfires, others, he has never assigned a 
PFO, because he has confidence in the FEMA Federal coordinating 
officer who is in charge of the joint field office and is the 
single person to relate with the State coordinating officer in 
a disaster.
    Ms. Norton. He is a statutory official.
    I am pleased at the restraint. I am not sure if it means 
there still exists somebody who could be deployed. You would 
better be very careful if there are two officials on the 
ground.
    But what you describe is somebody who would not be on the 
ground in a Stafford Act matter, and a Stafford Act matter is, 
of course, what we are most concerned with, for the most part, 
because while we have been very fortunate not to have an event, 
a terrorist event, since 9/11, we have had countless Stafford 
Act events, which, of course, are hurricanes and floods and--I 
mean, we just finished a flood. I am not sure it was a Stafford 
Act event.
    But let me take that, the floods we just had. We just had 
some floods in the Midwest.
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. Those were not declared disasters, I take it.
    Mr. Johnson. They were declared disasters, and it was a 
Federal coordinating officer, a statutory official, who was 
assigned to those disasters. There are FCOs right now at about 
18 different locations around the country assigned to monitor 
the recovery and disasters.
    Ms. Norton. So those were Stafford disasters.
    Mr. Johnson. That is correct. There is not a single PFO 
assigned to any of those events.
    Ms. Norton. All right.
    Thank you very much, Mr. Chairman.
    Mr. Cuellar. We are going to go, members, to a second line 
of questioning.
    My question to you is more general. In your eyes, what can 
we do to help you? Besides funding, what can we do, as a 
committee, to help you address those issues that we mentioned--
emergency housing and public alerts and the other issues, the 
three issues that we mentioned?
    What can we do to help you, because we want to--our style 
is, we are not confrontational, we want to see how we can work 
together, because we are trying to fulfill the same goal. You 
are in the Executive branch, we are in the Legislative branch, 
but I think we certainly should work together. What can we do?
    Tell us what we can do to help you to make sure that we are 
not here at the end of the year talking about the same things.
    Mr. Johnson. Mr. Chairman, I think that your role in 
oversight is a very valuable role. By having this hearing 
today, by hearings that Ms. Norton just held, by certainly 
hearings with the chairman, Chairman Thompson, those are all 
very valuable hearings, because you do convey the concerns that 
you hear from your constituents, and you keep us on point on 
those things.
    I think I would just offer that in moving from old FEMA to 
a new FEMA it is the structural changes, it is a cultural 
change, and those take time. I think to have--as you and I 
discussed this morning, I think you are patient but yet you are 
persistent, and I think those things are very beneficial to 
FEMA.
    As we look at these issues, we are finding that there are 
areas where we may need new authorities, and we have worked 
with your subcommittee in the past and committees on the large 
to look at what the authorities might be.
    We are learning a lot about how to accelerate recovery in 
the Gulf Coast. We are, right now, almost near finishing the 
National Disaster Housing Strategy, and that National Disaster 
Housing Strategy will point to a number of areas where there 
needs to be additional flexibility or perhaps additional 
authorities coming to the Stafford Act.
    So I think by your continued focus you point to us the 
things that are most important to you, listening to your 
constituents. As we try to fix all of FEMA, we can sometimes 
perhaps miss the mark, and so I think you are able to do that. 
I think to provide this forum is very helpful.
    Your staffs engage with us, and while sometimes that is an 
engagement, even castor oil is good for you, that is what is 
reported, I think staff engagement is very good. You have a 
professional staff who I think works with us to identify what 
the key issues are in advance of the hearing or sometimes to 
avoid a hearing, and I think that becomes very beneficial.
    So what comes across is the genuine desire to advance FEMA, 
not so much the genuine desire to thump on FEMA. There are a 
lot of people who are willing to thump on FEMA, and so we 
appreciate the fact that you show the persistence, the guidance 
and the patience to allow us to make the changes that we need 
to make.
    Mr. Cuellar. That is the best answer I have heard from a 
witness. I appreciate it. I do appreciate your staff continuing 
working with our staff, because, as I mentioned, we are all 
trying to reach the same goal. So just have your staff continue 
working with our committee staff and individual member staff--
also members, their staff also to make sure we do our jobs and 
certainly work with you on that.
    At this time, I will recognize the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman, and thank you again, 
Admiral Johnson, for your very good and thoughtful testimony 
here today.
    Just real quickly on the Federal preparedness report. The 
Post-Katrina Emergency Management Reform Act also required that 
FEMA submit a Federal preparedness report. The report is 
scheduled to be submitted to Congress, I believe, in May.
    Could you please discuss some of the major highlights of 
this report and what plans are in place to use the data to 
inform processes as you move forward?
    Mr. Johnson. Yes, sir. I think that is the kind of thing, 
to get back to the Chairman's question, I think this Federal 
preparedness report will be very, very beneficial to FEMA as it 
helps to drive and focus our efforts but also very beneficial 
to the committee and to the Nation.
    This will be the first time that there has ever been a 
national preparedness report. It will be comprehensive, it 
hopefully will be empirically driven. We want to use data, 
measurable data so it can be replicated year after year with a 
consistent methodology.
    I think that you will find that it will talk about--it will 
give a positive report into how we have taken our $19 billion 
or $20 billion in grants over the last 5 years and invested 
those, how we have taken the National Response Framework and 
those types of doctrine and leveraged those, how we have used 
our national capabilities, our Federal capabilities, our target 
capabilities, how those have been beneficial.
    We will assess what our progress is on those, and all of it 
will show that we have got a good sense of direction, there is 
progress along the way, and at least at this point we are 
satisfied that we are on the right road.
    We do expect to get that report to the Congress by May and 
then to reflect it every year afterward.
    Now, we just received the State preparedness reports. Some 
of those reports came from 150 pages, some with 350 pages, and 
they were due the 31st of March, and all of them came in on 
time. So that information, as quickly as we can consume it, 
will, in part, be reflected in the national preparedness report 
as well.
    So I think, again, I think it will be instructive as the 
first report, and that will help us sort of frame, have we hit 
the target you are looking for and how to improve that process 
over the years.
    Mr. Dent. Well, thank you, and I guess my final question 
will deal with the disaster response teams. There are at least 
six different types of disaster response teams that can be 
deployed in response to a specific event. Have these teams 
trained together, and what coordination between these teams is 
required before and during an incident?
    Mr. Johnson. Yes, sir. There are a number of teams: The 
emergency response teams, our National Response Coordination 
Center team, our MERS communications team, our urban search and 
rescue teams. So there are multiple teams.
    What we have been able to do, particularly in this past 
year, is to focus more on doctrine and writing down for almost 
our first time in FEMA what is the doctrine, the operating 
guidelines that these teams use and to make sure they in fact 
have common and consistent doctrine, use the terminologies and 
the same processes and procedures. That helps to blend those 
teams together.
    We have also deployed them simultaneously in exercises, 
which we had not always previously done. So, in fact, in TOPOFF 
4, for example, we deployed urban search and rescue teams, the 
MERS was deployed, our national response coordination team was 
deployed. So we are weaving them together in the exercise 
environment.
    Then in disasters, where I think a couple of your staffers 
were participating in our national video teleconference for 
disaster, that was a chance to play out again and see these 
teams in motion. Our first team that provided real-time 
screening video from the disaster site, beneficial to the 
State, beneficial to FEMA and beneficial to national situation 
awareness.
    So I think we are focused on that same question: How do we 
weave these teams closer together so that in fact they do 
become complementary?
    Mr. Dent. Thank you, Admiral. You have been an 
extraordinary witness. You have been very helpful and 
informative, so thank you.
    I yield back, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Dent.
    At this time, I recognize the gentlewoman from the Virgin 
Islands, Mrs. Christensen, for any additional questions.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Admiral, I would like to ask a question about emergency 
housing and how do you see that being fixed in the future. We 
all know what a disaster it has been. It was in Katrina. I 
think that FEMA has a role in the very early days after the 
disaster, but what do you recommend, what are you recommending 
for the future in terms of fixing the housing problem?
    Some people have suggested--I have seen some suggestions 
that the Department of Health and Human Services, which handles 
refugee problems, ought to do it, and, of course, HUD, which I 
don't think performed very well during Katrina either, ought to 
do it.
    So what do you see going forward?
    Mr. Johnson. Mrs. Christensen, I think you appreciate this 
issue. I know you do, personally. PKEMRA required us to do the 
National Disaster Housing Strategy. There's never been one 
before, and we are late, but we are working on it very 
intently, and we expect to get it to the Congress in June.
    It will point to three specific areas that we think we need 
to focus on. First, with greater clarity, what is the role of 
the individual, what is the role of the community, what is the 
role of the State, what is the role of the Federal Government? 
I think those became confused in Katrina where the Federal 
Government almost assumed too much responsibility in too broad 
of a role. The strategy will talk about that, and it uses the 
National Response Framework that identifies who is principally 
responsible for the safety and welfare of their citizens and 
the roles that fit that.
    The second is to look inside housing itself, and there is 
sheltering, there is interim housing, and there is long-term 
housing. We do think that FEMA's expertise is in sheltering and 
interim housing. We think HUD's expertise is in long-term 
housing. So we talk about that seam between FEMA and HUD. We 
should do what we do best, they should do what they do best, 
and both of us should work to do both of those a lot better.
    The third area is planning, and a constant drumbeat in FEMA 
is planning. There is no consistent way to do disaster housing 
planning in our Nation right now, and so we will talk about in 
the strategy and propose that we do develop a planning process 
that will work at the community level, the State level and the 
Federal level to do a better job of planning for a normal 
event, if I can use that term, as well as a catastrophic event.
    So I think you will find a lot more detail then here at the 
end of May, early June when we can submit to you the National 
Disaster Housing Strategy.
    Mrs. Christensen. Thank you.
    Could you explain the IMAT role to me? I am not sure how 
they work.
    One of the things that we really don't need in a disaster 
is duplication and confusion over whose role is what. In some 
ways, the IMAT seems to be doing some of what the logistics 
team may be doing, and maybe I am not understanding what the 
IMAT is about. Also, when you have your regional and your local 
people responding and to have another layer come in and 
probably doesn't know the players and doesn't know the 
jurisdiction can also create confusion.
    So could you explain the IMAT a little more to me?
    Mr. Johnson. Yes, ma'am. That is a great question, and what 
I would like to do is give you, sort of, an overview and then 
have us meet with your staff and provide a more detailed brief 
on our IMAT. I think you will like the IMAT when you see it.
    What we do in a disaster now is the States like our ER 
teams, the emergency response teams, and these are a group of 
FEMA people that respond, that are experts in their area of 
specialty, logistics, operations, communications, incident 
management, and they respond, and they augment a State 
emergency operation center and build the first network to 
really build that----
    Mrs. Christensen. So do they sit with the emergency person 
locally around the table? Is that what they do?
    Mr. Johnson. We deploy them. They can either be deployed to 
the disaster site or to the State emergency operations center 
to help the State, either way. We do that with consultation of 
the State.
    The bad thing is these teams are made up of people with a 
collateral assignment, they are not permanent assignments. So 
we take 15 people out of jobs that are full-time important jobs 
to put our best people forward. So we basically draw from the 
rest of FEMA to support a disaster site, and when you do that 
time and time again, sometimes simultaneously, you are taking a 
lot of knowledge and strength out of the rest of FEMA and 
weaken those regions to support a disaster site.
    The IMAT replaces those. It is not on top but it replaces 
that. These are permanent, full-time people. Each region will 
have an IMAT, and there are two national IMATs that we will 
establish this year. So they are full-time people. They are 
credentialed, so they are trained and experienced and 
recognized as experts in their field.
    They will be tasked to be air deployable, and with less 
than 12 hours from a disaster occurring, an IMAT should be on 
scene at either the State emergency operation center or a 
disaster site. Their job is primarily to begin, first, 
situational awareness--how you help the State and FEMA to know 
what is going on on the ground and to assess what assistance is 
required.
    The States were as nervous about the concept as you are 
when they first heard about it. As we have talked to them about 
the professionalism of this team, I think they are excited to 
see it when we can first roll it out here between now and June.
    They will participate in a disaster, they will participate 
in exercises, and they will conduct training with their State 
counterparts. So, in fact, when they deploy, it will be with 
relationships they have built by exercises and training.
    I think it is a very strong concept, and we are really 
excited about it at FEMA. I would like the chance to give you 
more information about it.
    Mrs. Christensen. Thanks. I will look forward to that.
    Mr. Johnson. Yes, ma'am.
    Mrs. Christensen. It is a little clearer. Thanks.
    Mr. Cuellar. Before I recognize Ms. Norton, let me just 
follow up on what Mrs. Christensen said, just to make sure we 
are on the right path. As you know, Chairman Thompson sent you 
the letter. Were you committed in providing this committee a 
formalized plan that details the plan to move the 30,000 
families still living in FEMA housing into permanent homes and 
give us a timeframe for when we should expect that?
    Mr. Johnson. You are talking Gulf Coast, specifically?
    Mr. Cuellar. Yes.
    Mr. Johnson. Yes, sir. We are working to move everyone out 
of a mobile home or travel trailer into a more permanent 
solution. That permanent solution being perhaps a hotel or 
motel for a short time and then to a rental unit in Mississippi 
and Louisiana. The challenge is greater in Mississippi where 
the housing has not restored as fast as it has in Louisiana.
    We want to focus on two groups of people. The first group 
are those who are health issues because of formaldehyde, those 
who are perhaps older, respiratory disease, young children, and 
we are focused on that group first. There's about 15,000, I 
believe--about 15,000 in that group.
    The second group are those who live in a group site or 
might be a pre-disaster renter who don't have any other long-
term housing available. So we are focused on both of those 
groups.
    We think that we can move all of the group site people by 
June 1, and we think that we can move the rest of those who are 
health issues through the early parts of summer before the 
temperatures and humidity really heats up and there may be more 
problems with formaldehyde.
    We have a good action plan. We established a task force 
that involves Federal, State and local officials. They met 
twice in Louisiana, and they met last week in Mississippi, and 
so we are working with the State, with the local counties to 
identify all available rental units, and we are working with 
landlords to help them be more receptive to having these 
households move in to their rental units.
    So we have a very well-organized plan. We have a letter of 
response to the Chairman, and we will be glad to provide your 
staff with more detail on how we think we can accomplish that 
task.
    Mr. Cuellar. But the bottom line, Mr. Johnson, one, we will 
get a formalized plan, and what is the timetable as to when we 
can get that plan?
    Mr. Johnson. Yes, sir. On our group sites, for example, we 
are down--from about 85, we are down to about 30 group sites 
now, and we think we can close all but probably about three by 
the beginning of June. There are just three locations in the 
different parishes where there just is not--there are not good 
housing options available. So we would be glad to talk about 
them and then give you a timeline on those who have the health 
issues, as I talked about, our two priority groups.
    Mr. Cuellar. Okay. So when can we expect the plan?
    Mr. Johnson. We are actually operating that plan now. Let 
me find out and get back to you on when we will respond on the 
letter, and then we would be glad to brief your staff at their 
convenience.
    Mr. Cuellar. Okay. Just, again, for our staff, give us--go 
ahead and get a hold of them and then, staff, if there is an 
issue as to they are taking too long, and I am sure it will be 
done quickly, just so we can have the plan and when we can 
expect it. I just don't want for us to have this meeting and 
then we forget about it and we get caught up with other things. 
So if you all can just work with staff and the staff will 
communicate with us.
    Mr. Johnson. Yes. We should respond quickly. Every morning, 
I get an updated metrics chart on where we are for both 
communities, where we are with hotel-motels, where we are with 
availability of rental units and how many people have moved, 
even between 1 day and the next, out of a travel trailer or 
mobile home. So we would be glad to show you what our 
operational metrics are and share some of those with you.
    Mr. Cuellar. Okay. Thank you. Thank you, sir.
    At this time, I will recognize the gentlewoman from the 
District of Columbia, Ms. Norton.
    Ms. Norton. I thank you, Mr. Chairman.
    Mr. Johnson, perhaps no controversy has been as searing 
since Katrina as the formaldehyde trailer controversy. Are 
there any residents still left in those trailers on the Gulf 
Coast?
    Mr. Johnson. There are. As I was responding to the 
Chairman's questions, we still have just under 30,000 
households that still reside in mobile homes or travel trailers 
on the Gulf Coast, and our effort is----
    Ms. Norton. Trailers I am interested in.
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. The trailers with the formaldehyde, not the 
mobile homes.
    Mr. Johnson. In the trailers, I don't recall off the top of 
my head exactly what the number is, but it is probably--85 
percent of that number are in travel trailers. We are working 
with all those families to move them. We have offered to test 
those units, and we actually have conducted tests on more than 
500 occupied travel trailers. We go back and meet with all 
those occupants and we describe to them what the test is, we 
give them the result, and we encourage all of them to move to a 
hotel-motel right away and into an apartment.
    Ms. Norton. What response are you getting from the urgings 
to move to a hotel or other temporary housing?
    Mr. Johnson. Not a very aggressive response.
    Ms. Norton. Why is that?
    Mr. Johnson. I think some cultural issues. They have lived 
in that travel trailer, it has been their home. It is close to 
work, school, their church and their families. Some of them, 
perhaps, don't quite believe all of the medical reports, 
despite the information we have provided to them. For a while, 
there was a thought that if they moved to an apartment, that 
they would have to be charged rent.
    Part of our housing program, as we move people to an 
apartment, in order to encourage self-sufficiency, we were 
beginning to escalate their part of the cost of living in an 
apartment, but we have waived that. Now, anyone who is in 
travel trailer now does not have to pay any element of the rent 
when they move to an apartment.
    So we have done several things like that to encourage them 
to make the decision to leave their travel trailer and to move 
to an apartment.
    Ms. Norton. I think next to work, near work, near family 
and, of course, the horrific shortage of housing, in New 
Orleans in particular, may be contributing to this. I just 
would hope that this controversy would not flare up again, and 
one of the reasons it may not is if we get to cooler weather.
    One of the hypotheses is that in very hot weather this 
formaldehyde problem emerges when perhaps it does not in other 
kinds of weather. We certainly should not have any of these 
people in these homes in the hot New Orleans-Mississippi 
weather this summer. I mean, if that is still to be shown, we 
ought to assume, at the very least, that the hot temperatures--
and I will say even coming from hot, humid D.C., born and 
raised, I have never seen anything like New Orleans. So I 
understand the problem you have.
    We are going to be having a subcommittee hearing, a status 
hearing on New Orleans, in particular. So we will try to get to 
some of that, because much of that is related to other kinds of 
housing and you have alluded to HUD and the rest of it.
    Mr. Johnson, I got an e-mail from staff on my subcommittee 
concerning your last answer, and, therefore, I want to clarify 
this principal Federal officer and principal coordinating 
officer. This may sound like a lot of ABCs and DEFs, HIGs, but 
it really is about whether we have straightened out something 
that has bothered the two committees of the Congress now for 
some time.
    You are correct that the language refers to emergencies, 
and we are talking about Stafford Act emergencies, and the 
Stafford Act emergency is neither a nuclear emergency nor a 
terrorist emergency. It tends to be an emergency, a natural 
disaster emergency.
    Now, the report language was clear that there shouldn't be 
any PFO funded or any successor--I am looking for the report--
PFOs or successive PFOs. I, essentially, want to clarify. We 
understand about declared emergencies, because that is where 
the confusion would be monumental.
    Are you saying that FEMA does go to other kinds of 
emergencies, and if there is no Federal official on the ground 
and therefore when you talk about some possibility of a 
principal Federal official you are not talking about a Stafford 
Act or a declared emergency; you are talking about something 
else. I am trying to figure out what is that something else 
where we would find someone on the ground, and would that 
official find another Federal official on the ground? What is 
FEMA doing there in the first place if it isn't an emergency of 
the kind that FEMA usually attends?
    Mr. Johnson. What the National Response Framework indicates 
is that there may be a Stafford Act event for, again, I use as 
the example of a pandemic, where there could be a Stafford Act 
event but that FEMA may not be in charge of that event. In a 
pandemic, for example, there will be a principal Federal 
official. HHS has a very large role in a pandemic, and FEMA 
will likely not be the lead agency in responding to a pandemic.
    Ms. Norton. Okay. I want to understand this, for the 
record. If there is no Federal official then on the ground, 
then you are saying there could be somebody who you are calling 
the principal Federal official but that is because there is 
nobody there and because the Federal coordinating official is 
not there. So there is one person there. That is whom you are 
calling the Federal principal official?
    Mr. Johnson. No, ma'am. There will be other Federal 
officials there. There will be many Federal officials there. 
But in a pandemic, for example, there will be a principal 
Federal official, and there will be a Federal coordinating 
officer. But I believe that we understand better what their 
respective roles are.
    Ms. Norton. Well, I don't understand what their respective 
roles are, because it is not a Stafford Act emergency, but, 
let's face it, a pandemic is a huge emergency, and, yes, CDC 
and other Federal officials will be there, but that is the same 
way we handle Stafford Act emergencies. Then the question 
becomes, who is the lead official where it may be from a 
different agency, but you are telling me that there could be 
two FEMA officials on the ground, and one could be the 
principal Federal official and one could be the coordinating 
official.
    Mr. Johnson. Ma'am, let me try one more time. There may be 
an instance in a Stafford Act, like a pandemic, where FEMA may 
not be the lead agency. In that case, there will be an FCO 
there, nonetheless, to represent and fill those 
responsibilities.
    Ms. Norton. So why do we need a PFO, particularly in the 
language that said there should be no successor PFOs either?
    Mr. Johnson. Right. The language still allows the secretary 
to have a PFO, and it allows the secretary--what it restricts 
is the secretary's ability to use the PFO in a Stafford Act 
event, but it doesn't prevent him from having a principal 
Federal official.
    In a law enforcement event, for example----
    Ms. Norton. I don't understand that at all. I don't 
understand--look, this is about whether or not you are funding 
two officials on the ground, you are paying for two officials 
on the ground who represent FEMA. In fact, on the ground, when 
people don't know either of you, there may be confusion as to 
who is the point man. That would be the case if you were 
talking about a pandemic, which was not a Stafford Act matter 
or whether you are talking about a hurricane, which is a 
Stafford Act matter.
    So I want to know what the two officials do, why and how 
they do not overlap, who is in charge, if in fact there is a 
possibility of an event where you would have these two 
officials on the ground at the same time.
    Mr. Johnson. When there is a PFO and an FCO both together, 
and that can still happen, it is very clear, both in the 
language--it is clear in the National Response Framework, and 
it is very, very clear, made clear to them, personally, through 
a number of training sessions and personal discussions with the 
secretary, with Administrator Paulison, that the FCO is in 
charge of the operational event. The FCO is in charge of 
meeting with the State----
    Ms. Norton. Then why do you need the other official there 
at all?
    Mr. Johnson. Because in a large catastrophic event that is 
very, very complex, like a Katrina, like a 9/11, there may very 
well be--could be some Federal coordination issues that need to 
be worked out, there is----
    Ms. Norton. Well, I thought that is what the Federal 
coordinating official--coordinating official--is all about.
    Mr. Johnson. But there could very well be instances where 
there are larger non-response issues. There could be 
investigative issues from the Justice Department and FBI, as 
was the case 9/11. There are Federal issues beyond the balance 
of the response and recovery that need to have some Federal 
coordination. There could very well be a desire on the part of 
the secretary and----
    Ms. Norton. Is this Federal coordinating official still 
paid--I am sorry, principal Federal official still paid at the 
same rate he was paid when we first said you should get rid of 
him? In other words, if he comes back on the ground, is he 
still this highly paid Federal official?
    Mr. Johnson. Are you talking about the PFO?
    Ms. Norton. Yes.
    Mr. Johnson. Well, they are paid based on whatever their 
job is. It is not a full-time job.
    Ms. Norton. Mr. Chairman, I just think the record shows 
confusion continues to exist, that we probably still do have in 
some--nothing has happened yet. You assure me that you have not 
had this happen--no PFO has been on the ground anywhere since 
the appropriation language was included?
    Mr. Johnson. The PFO has not been on the ground on any 
single Stafford Act event since----
    Ms. Norton. Well, we just had testimony here that we could 
have an even larger event, perhaps a pandemic, where there 
would be two people, and I have heard Mr. Johnson try to carve 
out a role, frankly, for the second official here, and I think 
we need to look more closely at that.
    Mr. Cuellar. Yes.
    Mr. Johnson, we will sit down--I will be happy to sit down 
with you all, Ms. Norton, if you all want to follow up with a 
meeting. We will be happy to set it up informal and have a 
little get together on this.
    Mr. Johnson. Yes, sir, that would be helpful.
    Mr. Cuellar. Okay. Before I pass this on to Mrs. Lowey, let 
me just make sure I just ask one thing.
    On the alerts and the warning issues, what is currently 
FEMA's role in alerting local residents and businesses that 
there is a potential disaster approaching? We have seen 
wildfires in California, tornados in the Midwest. Especially 
now with the new technology, whether it is cell phones or PDAs, 
whatever it might be, what exactly are you all doing?
    Mr. Johnson. FEMA has a project assigned to us in an 
executive order by the president to lead the IPAWS project, the 
Integrated Public Alert Warning System, which is basically 
designed to replace a 50-year-old analog system into the 
digital world. We actually did pilot projects last hurricane 
season that allowed us to communicate with individuals in 
multiple languages, with individuals with disabilities and do 
it with PDAs, with cell phones and a range of new technological 
devices.
    So we have a project right now over the next 5 years to 
develop this IPAWS project and field out for the Nation, 
working with State and local governments, working with industry 
to field out this integrated system that does take us to the 
digital age.
    Mr. Cuellar. Okay. Could you provide that, again, to us, 
our staff, what your plan and how you plan to do this? Again, 
we would like to sit down and look----
    Mr. Johnson. Yes, sir. We would be glad to provide a 
briefing on IPAWS.
    Mr. Cuellar. All right.
    Thank you, Mr. Johnson.
    At this time, I would recognize the gentlewoman from New 
York, Mrs. Lowey, for 5 minutes.
    Mrs. Lowey. Thank you very much, Mr. Chairman, and thank 
you for appearing before us.
    The ability of FEMA to respond to future emergencies is 
directly linked to the ability of FEMA to help prepare local 
first responders. For that reason, I would like to focus my 
questions on State and local programs, if I may.
    First of all, my first concern, the number of urban area 
grants. The number of cities that receive Urban Areas Security 
Initiative grants, as you know, is ballooning. When it began, 
seven cities received funds. In fiscal year 2008, that number 
will likely balloon to 60. The Department funds boondoggles in 
areas that terrorists couldn't find on a map at the expense of 
real security needs in cities that have been attacked and 
remain targets.
    Every region of the country, I want to make it clear, 
should receive homeland security grants; however, not every 
region should receive urban area grants, particularly those 
that face few, if any, threats.
    So my first question is, why has the Department increased 
the number of areas that receive urban area funds? I am not 
saying they shouldn't receive some funds for homeland security 
but why urban area funds?
    Mr. Johnson. Mrs. Lowey, you are correct that we started 
with seven tier one, and we still have, I believe, this year 
was eight tier one cities, and the number of tier two cities 
did increase from last year to this year, as did the funding 
level. So I think the no tier one city lost dollars. They may 
have lost opportunity for more dollars.
    You are probably familiar with our risk formula, which we 
have worked with the Congress and the committees to develop. We 
go through the risk formula and recognize that across the whole 
range of risk, that in fact there are a number of significant 
cities, sizable cities beyond just the tier one cities that do 
have the potential to incur terrorist risk.
    Mrs. Lowey. But following up on that, I am looking at the 
numbers. In fiscal year 2006, the Department awarded funds to 
35 core cities and 11 sustainment regions, and I was told the 
purpose was to finish programs in the 11 sustainment regions 
and then only fund 35 urban area awards in future years. But 
when the fiscal year 2007 guidance was released, the 
sustainment regions were almost all back on the regular list 
again, and this doesn't make sense.
    So it seems to me DHS has no clear plan for how to manage 
the program.
    Mr. Johnson. Ma'am, I do believe that we have a plan. I do 
believe that our plan is to go by a consistent risk formula and 
to assess that risk across the country, recognizing that from 
year to year, based on intelligence, based on other 
circumstances, that the risks do change.
    I think that we acknowledge, as you do, that the primary 
risk is in the tier one cities, and we consciously look at the 
allocation of funds between tier one and tier two and ensure 
that the tier one cities continue to have sufficient funding to 
maintain all of the initiatives that they have started that we 
have reviewed and we have approved in their applications.
    Mrs. Lowey. But they are losing out on additional funding, 
even though the threat may increase. You are saying, 
``sufficient.'' That is questionable. Depends whose judgment, 
right?
    Mr. Johnson. Yes, ma'am.
    Mrs. Lowey. Let me move on to another problem directly 
connected to that issue, and this also involves the management 
of UASI, and it has been that for the second consecutive year 
45 percent of UASI funds will be safeguarded for areas not in 
the top risk tier. That means New York and Washington, DC will 
compete with one another, while nearly half is held back for 
areas that face less risk than either of them.
    So it seems to me this is truly absurd. As a member of the 
Appropriations Subcommittee on Homeland Security, I am keenly 
aware of the fact that every spending bill has specified that 
UASI grants are for high-threat, high-population, density, 
urban areas. It seems to me they should only be going to what 
DHS labels tier one areas.
    So if you can tell me--again, that doesn't mean the other 
States shouldn't get money in other categories, but what 
justification does the Department have for awarding nearly half 
of all funds to areas that aren't high-risk?
    Mr. Johnson. I guess, again, it is an interpretation of 
what is high-risk, and it is the desire by the Department, 
across all the grants and the major urban areas--remember, 
again, in a major urban area, we are dealing with that just 
urban area, and all the other programs we deal with at the 
State level. So the funds get diluted in a number of places.
    But when you look at the cities in the tier two, there are 
a number of significant locations there, and I don't recall 
them all, I don't have the list with me, but a number of 
significant locations I think we would recognize throughout the 
country that do incur risk.
    Mrs. Lowey. Wasn't the program created for high-risk areas?
    Mr. Johnson. Yes, ma'am, it was.
    Mrs. Lowey. Yes.
    Mr. Johnson. I guess we can get into is it high or higher 
and highest, but all my----
    Mrs. Lowey. Oh, come on. Look, I am not thrilled to be in 
the No. 1 or Washington is pretty close, but if we are in the 
No. 1 high-threat areas, I am not going to go through the 60 
other States. I am not saying they shouldn't get other funds, 
but providing Washington, DC and New York with additional 
funds, it seems to me, should be the top priority rather than 
including all of those 60 other areas, 60 other States, cities 
in the high-risk category.
    So let me just say this: I think you are understanding 
exactly what I am talking about.
    Mr. Johnson. Yes, ma'am.
    Mrs. Lowey. I can see your response. So I really do think 
there has to be some additional analysis of how these grants--
this is not a pork barrel program. This is for real. We lived 
through 9/11. We know the threats, and it would seem to me that 
whether it is New York or Washington, DC, the top tier areas, 
those eight areas, shouldn't be limited to 50 percent or less, 
rather, 45 percent, of funds that are specifically dedicated to 
high-threat areas.
    Mr. Johnson. I think, clearly, that is a legitimate 
perspective. Let's talk again as we look at grant guidance for 
the--the grant guidance is out for 2008. Let's talk again about 
that, and I mean this involves a lot of decision, a lot of 
discussion within the administration of what we have proposed. 
It does represent a desire to elevate at the urban area level 
the preparedness for any kind of event, all-hazards event. So I 
think there are other legitimate perspectives as well.
    Mrs. Lowey. Now, I notice you have been a little generous, 
Mr. Chairman, with the time, so I am going to throw in one--
see, you started a bad precedent--I am going to throw in one 
other quick question.
    The big Chairman always calls me, Ms. Interoperability, and 
I have been very worried about the lack of interoperability. 
Everyone would agree that the ability for first responders to 
communicate at the scene of an emergency is vital. However, 
this year, FEMA did not request any funding for 
interoperability grants, and, as a whole, first responder 
grants were flashed across the board.
    So given the major cuts for first responder grant programs, 
what evidence do you have that first responders can now 
seamlessly communicate to justify slashing the budget for these 
grant programs? You must have some really good information that 
I haven't learned about.
    Mr. Johnson. Part of our logic is that we are just signing 
out many billions of dollars in interoperability funds, 
specifically, this year. So as we look at priorities in the 
budget and try to allocate the funds where we think that they 
go, we are looking at how much funds are in the pipeline to 
fund projects that are still on the drawing board and ready to 
be implemented.
    So there are a lot of dollars in the pipelines to cities 
and to States, to first responders that they have yet to take 
on and actualize. So part of our logic is just that, that we 
have appropriated a lot of money on this, and we need to see 
those dollars be converted into capability before we 
appropriate more funds.
    Mrs. Lowey. Now, I would like to know if New York has a 
whole lot of money in the pipeline that they are not using.
    Mr. Johnson. Excuse me?
    Mrs. Lowey. Could you share with me if New York has a lot 
of money in the pipeline that they are not using? I would like 
to know about it.
    Mr. Johnson. We can provide to you a status of the funds 
and how much has been allocated to the States and how much they 
have drawn down for various projects.
    Mrs. Lowey. Well, it is my understanding, and I am sure if 
you look down, check your records, all New York money is 
obligated. So, again, this is not about game playing and pork 
barrel and making sure everyone has their share. This is a 
matter of looking at the threat, looking at the need and making 
sure that those areas that really need it are getting the 
money.
    Thank you, Mr. Chairman.
    Mr. Johnson. Let me just say, again, between funds 
obligated and then funds expended on some multiyear projects, 
there is a delta there, and that is what we are taking a look 
at, and where is the funding in the whole pipeline, and how can 
we assure that the money gets spent best each fiscal year?
    We will be glad to provide additional information to you; 
yes, ma'am.
    Mr. Cuellar. Thank you, Mrs. Lowey.
    At this time, the Chair will recognize the gentleman from 
North Carolina, Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Johnson, thank you for being here this morning.
    Having served as a county commissioner, a State legislator 
and a State-wide elected official, a State superintendent, I am 
sure you understand that when you say, ``obligated funds,'' 
when the locals know they have got it, they obligate those 
dollars. They may be in the pipeline.
    There are only one or two reasons why they haven't been 
spent. No. 1, they don't yet have it in their possession or, 
No. 2, they haven't received the goods so they can draw down 
the money and pay for it.
    So when you talk about it being in the pipeline, it doesn't 
necessarily mean there is a lot more money going to be spent, 
it is just that money has already been obligated and they are 
moving. So I would like to identify myself with my good friend 
from New York's comments.
    Mrs. Lowey. I appreciate your comments.
    Mr. Etheridge. Thank you, ma'am.
    Let me move to one other point, because our first 
responders are our first people on the scene, but after 
Hurricane Katrina, the White House report recommended that DHS 
should make citizen and community preparedness a national 
priority.
    So my question goes with this: As we take the lead--if they 
are talking about them taking the lead in the Community 
Preparedness Division within FEMA, the National Preparedness 
Directorate, having served as a former State school chief, I 
know something about what that means, because our schools are 
the place where children spend most of their daytime. They also 
become places where shelter in place becomes depending on the 
kind of problem.
    But my concern is this, and I hope you would comment on it, 
because equally important when we talk about emergency 
management officials, they don't always integrate schools in 
their planning. They use them for sheltering in place or when 
they are needed.
    So my question is this: I have introduced legislation today 
to help solve this problem. So my question to you is, how has 
FEMA worked with schools to determine the needs of schools that 
ensure that the materials that they have developed within the 
Department are useful to administrators?
    No. 2, do you know how much of these resources are being 
used? What is FEMA doing to ensure that school officials are 
involved in the emergency planning process, because you and I 
know if you aren't involved in planning, you aren't likely to 
get any money. That is pretty much a guarantee.
    How is FEMA helping schools address their emergency plans 
when they need them through grants, because, you know, we have 
authorized that they should be eligible? How much grant funding 
has gone to schools?
    Mr. Johnson. Those are all good questions that I would be 
glad to help have the staff provide some more detailed answers, 
if that would be acceptable to you, and I will comment overall.
    Mr. Etheridge. Okay. If you would, when you make them to 
me, make sure that every member of the committee, along with 
the chairman, get that, please, sir.
    Mr. Johnson. Yes, sir. In general, I guess I approach it 
from several different perspectives. No. 1, is involvement of 
the schools in planning emergency preparedness predominantly 
the role of the State, and so we want to encourage----
    Mr. Etheridge. I agree with that except for the fact that 
it was included in legislation last year and the White House to 
make sure they were engaged with DHS.
    Mr. Johnson. So we need to work--as I mentioned previously, 
we are focusing more on planning and defining planning in FEMA 
and the Department and the Federal Government than we ever have 
before. We are probably within weeks of announcing an 
integrated planning system that for the first time in the 
Nation will have people plan with the same processes, whether 
you are in New York or Florida, Maine or California.
    By the way, the process will include--we have worked with 
NEMA and IEM, and we will use a planning guide developed at the 
State level as part of this Federal planning system. So it 
won't be imposed on the States as something they have not been 
party to.
    Mr. Etheridge. It will be best practices.
    Mr. Johnson. Yes, sir.
    Mr. Etheridge. Okay.
    Mr. Johnson. Second is our Community Preparedness Program. 
We do reach out to schools through our community programs. We 
have a program where we provided radios to schools, all public 
schools in America, for disaster warnings and disaster alert. 
So we are focused on that and want to work stronger with the 
States. I would be interested to see your legislation.
    Mr. Etheridge. Thank you, and I hope you will take a look 
at that, because I think it is important. What we are looking 
at with this is making it integrated so they are involved in 
the planning process at the local level as it moves up. I think 
that is critically important.
    On that point, in New York, when 9/11 hit, people tend to 
forget there were a number of schools adjacent to the site that 
were impacted directly, and no one thought about that issue, 
and if they were involved in the initial process, some of those 
things could be averted. So I think that is the critical piece.
    Let me move very quickly, because my time is running down, 
and if you have covered this--and, Mr. Chairman, I am sorry I 
was late, I was in another meeting--the deal with hurricanes. 
Other States get a lot of attention from hurricane 
preparedness, but North Carolina, I think, is probably the 
third or fourth most likely State to be hit. Part of it is 
because of our proximity on the East Coast, we sort of stick 
out. Then I think it is important that we prepare.
    Last year, Administrator Paulison sat before us for 2 weeks 
before the start of the hurricane season, and I am happy that 
he said much needed to be done. Right now, we have got 2 months 
before the next season hits us, and we have the National 
Response Framework in place, and FEMA, I think, is in a lot 
better shape, I hope, than it was with Katrina, but I do remain 
concerned.
    So let me ask you a couple of very quick questions. One is, 
are we prepared for the 2008 season? I recognize you do the 
best you can, but I would like to know where we are. 
Particularly, one of the biggest lessons that I think we have 
to learn from Katrina was the difficulty we had in 
coordination, not only between government levels but also with 
non-government organizations, or NGO's, as we might say. Now we 
have the NRF, which is supposed to provide standardization for 
incident management so that Federal, State and locals can work 
more effectively together.
    How confident are you that we will be able to integrate the 
different groups when we are called upon for a national 
situation, and what steps are being taken to ensure a smooth 
coordination of communication--getting back to Mrs. Lowey's 
issue--and clear command structures for this response?
    Now, I know in Katrina we carried in-communications simply 
because it was destroyed. I hope we never have that again, but 
I would be interested to know--that is a critical piece, as we 
all know, because if you can't communicate, we got real 
problems.
    Mr. Johnson. Our broad area by your questions. Let me 
comment, first, that North Carolina is probably a top three or 
four States that could be impacted by a hurricane, but it is 
also one of the top three or four States in the Nation in 
preparedness. Doug Hoell, who is your emergency manager, should 
be commending----
    Mr. Etheridge. Doing a marvelous job. Thank you.
    Mr. Johnson [continuing]. His staff for that. We are 
prepared, and preparing even more, for the hurricane season 
this coming summer. As you may recall, last year, we introduced 
our gap analysis, which we had not done before. The gap 
analysis gave us a baseline of all the 20 hurricane impact 
States, the District of Columbia, Puerto Rico, Virgin Islands 
as to how they prepared they were. We are engaging with States 
even now to rebuild on that foundation and assure ourselves at 
the level of their capability and what might be needed from the 
Federal Government.
    In that process, communications is a key. So we do have our 
communications team, as I had mentioned in a prior question, 
that is going to each State, including North Carolina, to 
coordinate with them and find out what are the gaps, if any, in 
first responder emergency communications. We can provide that 
assessment to you separately.
    Mr. Etheridge. Thank you.
    Mr. Johnson. The National Response Framework, I think, has 
done a great job of laying out how we will coordinate and 
communicate far better in disasters today than we did in 
Katrina. So I think that you will see that those States, 
particularly the hurricane States we are working with intently, 
are very familiar with the National Response Framework.
    We have Federal coordinators who have identified to reach 
out to all of the State SCOs, to the emergency managers to make 
sure we build those relationships early so there won't be any 
strangers come hurricane season.
    Mr. Etheridge. Thank you.
    Thank you, Mr. Chairman, for you patience.
    Mr. Cuellar. Thank you, Mr. Etheridge.
    At this time, I would ask for unanimous consent from the 
committee to allow Ms. Sheila Jackson from the State of Texas 
to be able to participate and ask questions.
    Hearing no objections, so allowed.
    At this time, the Chair will recognize the gentlewoman from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for your 
kindness and that of the Ranking Member, and let me also thank 
you for your leadership on this issue in holding this hearing 
and your staff.
    Also, I thank you for allowing my office to work with your 
staff on, I think, an important legislative initiative that 
addresses the question of how we can work better and make 
various tools that the Department of Homeland Security has, in 
particular FEMA, working with the issue of evacuation.
    So I want to thank you for your leadership and would look 
forward to meeting with you on some issues on this matter.
    Let me thank the witness, and my questions will be focused 
on this question of how we can do better from Katrina.
    The good news is that you do have experts on the ground 
that will probably be on the ground through the hurricane 
season of 2008 in the latter stages of this administration's 
leadership. I think Director Paulison, having been a 
firefighter and certainly coming from the Gulf region, brings 
some instructive insight into this area.
    One of the crises of Katrina, and I also met with the 
Lieutenant General that led the forces shortly thereafter in 
Katrina who we know deserved our appropriation. What resources 
do you have for pre-deployment? That was, I think, the Achilles 
heal in Katrina. You were not there to evacuate the disabled, 
the elderly, the poor, and you were really, in the Texas 
phrase, ``A day late and dollar short.''
    Do you have, in essence, pre-deployment funds that says, 
``We are in hurricane season, we are tracking Hurricane 
Roxanne, and that hurricane has a likelihood of hitting the 
Gulf or elsewhere.'' How quickly, how much resources do you 
have for your troops? When I say, ``troops,'' the resources to 
get on the ground.
    Mr. Johnson. Part of our gap analysis process is to get 
just to that point, to deal with Texas, Louisiana, Mississippi, 
to identify if a category three or above storm approaches their 
coast, what are the requirements in order to effect an 
evacuation, sheltering, transportation plan, and how are they 
positioned to get those resources? Is there a gap, and if so, 
what is the Federal responsibility in that gap?
    Ms. Jackson Lee. How close are you to having this document, 
having this format?
    I, frankly, believe, Mr. Chairman, that I would suggest 
you, the full committee, but, in any event, it would be 
interesting to have a hearing on those plans----
    Mr. Johnson. Right.
    Ms. Jackson Lee [continuing]. If you are putting them 
together.
    Mr. Johnson. We are. We are working with Texas, 
specifically--there are two areas in Texas. As you know, the 
Rio Grande Valley is of great concern if a hurricane were to go 
there, as Hurricane Dean was programmed to go, projected to go 
last summer. So we are working with Texas to reevaluate their--
I have forgotten the name of the plan, but it is a major plan 
that looks at the Rio Grande Valley.
    Then second is when you get to the eastern coast of Texas, 
and so they have basically looked at whether a hurricane goes 
in one direction. Bill Peterson, our regional administrator, 
and Tony Robinson, are working hand in hand with Jack Colley 
and those in Texas to look at those plans and identify those 
requirements.
    Ms. Jackson Lee. Well, let me just say this--and I have two 
quick questions, and I want to try to move on--but in all those 
fine individuals whose names I know, we have worked together, 
what I would offer to say is that we want to make sure that 
there is no disconnect, that the Federal Government and the 
State, and as well members who have relevant jurisdiction to be 
able to know the bricks and mortar of your plan.
    I would like to actually hear it laid out and, as well, to 
assure us that the plan impacts the places--for example, no one 
ever thought Rita would go as far up the coast as it did. We 
are still smarting from the fact that Rita went into the woods 
and to rural areas that it was not expected. I think that we 
have to be in front of the game, and I don't think we were, and 
I want to have the confidence that we are.
    I would like to really see the plan, and I think if you 
have a plan that impacts Texas, certainly that whole Gulf 
region should be included, and the key is, boots on the ground. 
Red Cross, FEMA and others on the ground pre a disaster hitting 
can avoid so much.
    The other point that I hope that we will be addressing is 
the question of Citizen Corps as the framework. It is a good 
framework, but it doesn't totally work. Citizen Corps can be in 
a community, dominate it by local jurisdiction and have the 
population that are Hispanic, African American, poor, Asian and 
others. Language difficulty, seniors, low-income areas are not 
engaged in Citizen Corps.
    I think that requires a strong assessment. In fact, I would 
like to see an audit of your Citizen Corps around the country 
to be able to understand what they do and what their outreach 
is. Do you have any input or--not input but any assessment on 
making sure that Citizen Corps--because they are funded, and 
they sit, sort of, at the top of the jurisdictional head and 
really don't trickle down. They are supposed to be the base of 
help, volunteer help to a certain extent, in communities.
    Mr. Johnson. Two things: First, we would be very happy to 
provide you our hurricane plan over the next several weeks; 
second; the Chairman indicated that legislation might be 
forthcoming that would authorize Citizen Corps, which now is 
not an authorized program in FEMA. So I think as I indicated to 
the Chairman, we would welcome that legislation.
    Third, I think your comments about the limitations of 
Citizen Corps, quite frankly, are the first time I have heard 
those comments. So I am interested to find out the answers too. 
So let Dave Paulison take a look at that and come back to you 
and talk about Citizen Corps and whether or not we feel it is 
giving you the right part of the community.
    Ms. Jackson Lee. Well, let me go back a question. As I 
indicated, I congratulated the Chairman for his leadership on 
this issue. We had Director Paulison in my community looking at 
these issues of hard to reach areas--senior citizens, poor, 
language difficulties, and I think it was evident that many of 
the people had not even heard of Citizen Corps, didn't have an 
understanding of how to evacuate in flood-prone areas.
    So I throw the question back to you: Do you think that is a 
problem if we have a structure, even though it might have been 
voluntary, that a lot of these places really are not connected 
to the best way out and some kind of connectedness any time of 
a disaster hitting?
    Mr. Johnson. Well, I think it is a problem, and 
Administrator Paulison came back and pressed--if that is the 
right word--certainly an impression after the visit with you in 
Houston and has begun to ask those same questions. So, again, 
we have a program that is not authorized and it is not funded 
extensively. It is perhaps enough to get down to those levels 
in all the major areas where it needs to do that. So I think we 
need to do an assessment of Citizen Corps on where it needs to 
be.
    Ms. Jackson Lee. Let me associate myself, in concluding 
with Congresswoman Lowey and Congressman Etheridge--
Congresswoman Lowey on the grants. I do believe risk is an 
issue. I do think we should be continually monitoring the 
definition of risk so that we don't leave our places that need 
to be concluded.
    Then with respect to my committee, the subcommittee that I 
work on has infrastructure protection, but I think this 
legislation that is coming out of this committee, along with 
the school protection, is key to the extent of safe and place, 
and I don't think we have enough sites, and I do believe it is 
important to have a funding source that helps communities 
reinforce physical structures to make them places that can be 
considered, if you will, in the line of fire, and I hope that 
you would consider that in our ongoing discussions.
    Mr. Johnson. Yes, ma'am.
    Ms. Jackson Lee. With that, I yield back, and I thank the 
Chairman very much for his indulgence.
    Mr. Cuellar. Thank you, Ms. Jackson Lee, for your expertise 
also.
    I think we are ready to conclude. I just would like to just 
make sure that the things that I mentioned, that we need to 
followup the plans on the alerts and the housing and the other 
efforts and also to followup what Mrs. Lowey and Ms. Norton and 
Ms. Jackson Lee and anything that Mr. Dent also brought up. If 
you can just work with our staff so we can go ahead and follow 
up on that.
    Again, to conclude, we are pleased in many ways what FEMA 
has done. We appreciate your leadership and your staff's work 
on that. I know that in some areas we need to work on those, 
but, again, I do want to emphasize that we do recognize the 
good strengths that you have provided us.
    So at this time, I want to thank the witness for the 
valuable testimony and the members for their questions. The 
members of the subcommittee may have additional questions for 
the witness, and we ask you to respond as soon as possible in 
writing to those questions.
    Hearing no further business, the hearing is adjourned. 
Thank you.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Henry Cuellar of Texas for Harvey E. Johnson, 
 Jr., Acting Deputy Administrator and Chief Operating Officer, Federal 
      Emergency Management Agency, Department of Homeland Security
                             April 9, 2008
    Question 1. Prior to Hurricane Katrina FEMA had nearly 1,700 
Permanent Full-Time employees. Today, the ``new'' FEMA has nearly 3,000 
and is authorized for over 4,000 positions for fiscal year 2008. 
Efforts to ``staff up'' in several agencies in the Department have been 
challenging and I commend FEMA for working to meet these challenges 
over the past several years. That being said, FEMA has a challenge of 
filling over 1,000 vacancies by September. What I'm most concerned with 
is where the staffing levels will be at FEMA over the next year and the 
next 5 years. It is imperative that FEMA have a laser-focus on 
recruitment, retention, and career progression strategies and plans.
    What are the biggest challenges to staffing up FEMA--is it finding 
the expertise necessary for the vacant positions? Is it due to delays 
in processing for security clearances? How can these challenges be best 
addressed?
    Answer. FEMA is aggressively recruiting Nation-wide to meet its 
fiscal year 2008 ceiling of 4,007 permanent full-time positions. The 
biggest staffing challenge to FEMA is being able to accept and process 
applications from the increasing volume of interested and talented 
applicants who desire to work in a growing and dynamic Federal agency. 
For example, FEMA has already received approximately 26,000 hard copy 
applications for vacant positions during the First and Second Quarters 
of fiscal year 2008. One of our biggest challenges is sorting out the 
pool of applicants to find the most qualified applicants. To address 
this challenge we are employing a dual approach for recruiting and 
staffing the agency. First we are using the Department of Homeland 
Security (DHS) Service Center (contractor support) for the staffing of 
390 4-Year CORE conversions that were authorized by Congress. Second, 
we are using the Office of Personnel Management's USA Staffing services 
(automated hiring system) for the 443 newly authorized positions. FEMA 
is working with DHS to implement an automated hiring system that will 
remove the need for processing paper applications and give the agency 
greater flexibility in receiving and processing applications in support 
of the staffing process.
    The FEMA security office is currently involved in all stages of the 
recruitment and selection process which should prevent security 
processing delays. However, due to the backlog for security clearance 
processing in the Federal Government overall, FEMA's ability to move 
quickly has been somewhat compromised.
    Question 2. Members of the committee have expressed concerns that 
the fiscal year 2008 Homeland Security Grant Program Guidance contains 
provisions that restrict the use of grant funds for personnel costs. 
While, the Implementing the Provisions of the 9/11 Commission Act of 
2007, permits grant recipients to use up to 50 percent of their grant 
funds for any combination of personnel activities (including overtime 
and backfill costs), the Guidance attempts to impose far lower caps on 
personnel spending.
    Can you explain why FEMA has not complied with the law?
    Answer. Section 2008 of the Implementing Recommendations of the 9/
11 Commission Act, Public Law 110-53, specifies that ``not more than 50 
percent of the amount awarded to a grant recipient under section 2003 
or 2004 in any fiscal year may be used to pay for personnel, including 
overtime and backfill costs, in support of the permitted uses under 
subsection (a).''
    It is important to understand that the Department views personnel 
costs in two different areas: overall personnel costs (e.g., hiring for 
planners, grants management personnel, or exercise managers) and 
organizational personnel costs (e.g., fusion center analysts). As such, 
the Department has different caps for the allowability of these two 
personnel categories. Because the Department was allotted the 
flexibility of allowing ``not more than,'' it chose to remain 
consistent with previous years' guidance and chose to continue capping 
overall personnel costs at no more than 15 percent of a grantee's State 
Homeland Security Program (SHSP) or Urban Area Security Initiative 
(UASI) award. For organizational costs, the Department allows 15 
percent under the State Homeland Security Program (SHSP) and 25 percent 
under the UASI. Taken together, the Department has given States up to 
30 percent of the SHSP award for combined personnel costs, and up 40 
percent of the UASI award for combined personnel costs.
    Question 3. As you know, FEMA uses mission assignments to request 
disaster response support from other Federal agencies. According to a 
March 2008 report by the Department of Homeland Security Inspector 
General, mission assignment policies, procedures, training, staffing, 
and funding have never been fully addressed by FEMA, creating 
misunderstandings among Federal agencies concerning operational and 
fiduciary responsibilities. In addition, the report says FEMA 
guidelines regarding the mission assignment process are vague.
    Do you dispute the finding of the report?
    If so, what has FEMA done to enhance the management of mission 
assignments?
    Answer. The March 2008 report by the DHS Inspector General report 
implied that it was not until November 2007 that FEMA initiated an 
ambitious project to re-engineer the mission assignment (MA) processes, 
relationships, and resources involved in management of Mission 
Assignments. In fact, this process was initiated in the Spring of 2006 
(post-Katrina) when FEMA developed revised guidance for Pre-Scripted 
Mission Assignments (PSMA) and worked with the Department of Defense 
and other Federal Departments and Agencies to improve the PSMAs to 
facilitate more rapid responses during disasters. In the past 3 years, 
FEMA and its Interagency partners have expended a considerable amount 
of time and effort to improve procedures and resources available to 
manage the MA and PSMA processes. For example, in 2006, FEMA had a 
total of 44 PSMAs which were limited to the Department of Defense and 
the U.S. Army Corps of Engineers. In 2007 this number was increased to 
183 PSMAs with 28 Federal Departments and Agencies. Most recently, the 
number has increased to 223 with 31 Federal Departments and Agencies. 
PSMA support ranges from heavy-lift helicopters from the Department of 
Defense, to generators from the U.S. Army Corps of Engineers, to 
Disaster Medical Assistance Teams from HHS, and Emergency Road Clearing 
Teams from the U.S. Forest Service. By expanding the development of 
PSMAs over the past 3 years, FEMA is now better prepared to support 
tribal, State and local governments in disaster response.
    In the fall of 2007, at the direction of FEMA Senior Leadership, an 
internal MA Work Group (MAWG) was established to further enhance the 
management of MAs and improve existing processes. In collaboration with 
national and regional response partners, the MAWG was tasked to develop 
new procedures to provide greater visibility and financial oversight, 
increase specificity and accountability, and improve the efficiency of 
MA processes. The MAWG initiated a review of MA procedures including 
conducting interviews with FEMA and Interagency stakeholders, 
determining gaps, and developing recommendations to improve all aspects 
of the MA process. To ensure the credibility of the review, the MAWG 
engaged a wide range of interdisciplinary partners. In the review, the 
MAWG also considered MA project management, governance, training needs, 
limiting factors, and resource constraints.
    In collaboration with our stakeholders, the MAWG determined that 
ensuring adequate staffing levels to manage the MA process to ensure 
proper fiduciary and programmatic issues at the Headquarters and 
Regional levels is a major issue. Another recommendation emerging from 
the review was to establish the MA process as an official program 
within FEMA. These recommendations have been implemented and a formal 
MA Program with additional staff has been created in FEMA's Disaster 
Operations Directorate. Additional efforts to improve the efficiency of 
the MA process include the development of a Standard Operating 
Procedures (SOP) Manual to explain and streamline the process for 
issuing MAs. The MA SOP outlines the policies, procedures, and 
processes that FEMA uses to interact and coordinate with other Federal 
Departments and Agencies and organizations when responding to 
disasters. It provides response and recovery personnel with detailed 
information and guidance for executing MAs during declared emergencies 
or major disasters. The SOP documents changes and improvements to the 
MA process that help ensure compliance with NIMS and ICS and the PSMA 
Approval Process. In addition, a procedure for issuing PSMAs has been 
completed and is now available in an Operating Draft PSMA Catalogue. 
The Catalogue contains directions for use, comments, and improvements 
and a listing of all PSMAs. Additional potential PSMAs are in various 
stages of development.
    As part of our improvement activities, MA training has been 
increased at Emergency Management Institute (EMI) and in the FEMA 
Regional offices. Seven courses were conducted on MAs in fiscal year 
2007 and more than a dozen courses have been held in fiscal year 2008. 
Additional courses are planned. The Disaster Operations MA Program, in 
conjunction with EMI, is assisting in the development of a MA Training 
Plan, including a ``train the trainer'' course and exercise cycle to 
meet future needs. An additional resource, a FEMA intranet-based MA Web 
page, is also planned. As part of PSMA improvement processes, training 
is available for FEMA staff and staff from other Federal Departments 
and Agencies at EMI and online.
    With the new Program and dedicated full-time positions, FEMA 
continues to improve its incident management capabilities through more 
effective coordination of Headquarters and Regional MA efforts.
    Question 4. FEMA has gone through enormous reforms since Hurricane 
Katrina. Many of the reforms were mandated by Congress. Others were 
initiated internally by the Department. However, proposals continue to 
be occasionally put forward--both in the Congress and on the election 
trail--to reorganize yet again by stripping FEMA out of DHS. Other 
substantial changes such as making the FEMA Administrator have a term 
of 6 years have also been suggested.
    Having served as a senior official within FEMA for the past 2 
years, do you believe FEMA can ``work'' within the Department of 
Homeland Security or should we make it an independent agency?
    What do you see as the pros and cons of FEMA being a part of the 
Department of Homeland Security?
    Answer. Let me state clearly that FEMA is already working 
effectively as part of the Department of Homeland Security and has 
made, and will continue to make, great progress in implementing the 
necessary reforms. The key consideration at this time is that FEMA is 
in the midst of a number of major initiatives to address the remaining 
challenges, initiatives that continue to make significant progress 
because of continuing support from the Department, the administration 
and the Congress. FEMA and the Department have undergone a number of 
major reorganizations over the last 5 years, and we don't need another 
significant reorganization that will throw the agency into turmoil for 
an extended period and interrupt the progress being made in operational 
capabilities while we have to sort through the incredibly complex 
administrative challenges that would be necessary to support such a 
change. FEMA needs a significant period of organizational stability so 
we can complete the program improvements underway without the 
distractions that another major organizational change would entail.
    It must also be stressed does not that the Department of Homeland 
Security's leadership is committed to providing FEMA the support it 
needs to complete its transformation to the New FEMA. In addition, the 
Department of Homeland Security and its more than 180,000 employees are 
well situated to provide FEMA with needed support to address 
catastrophic disasters. During Katrina, thousands of DHS staff deployed 
to support FEMA's disaster response and recovery operations both in 
Washington and the field. Such deployments are much easier to implement 
when we are part of the same Department and report through the same 
chain of command, than they would be if FEMA were separated from the 
Department. Add to this that numerous foundational documents of our 
national approach to Homeland Security, such as the National Response 
Framework, are based on FEMA being part of the Department and one can 
see that taking FEMA out of the Department would once again throw into 
disarray the whole national effort to prepare for a coordinated 
Federal/State/local/private sector response just as we are starting to 
see real progress in the understanding of their respective roles by the 
various levels of government.
   Questions From Hon. Bob Etheridge of North Carolina for Harvey E. 
Johnson, Jr., Acting Deputy Administrator and Chief Operating Officer, 
  Federal Emergency Management Agency, Department of Homeland Security
    Question 1. After Hurricane Katrina, the White House Report 
recommended that ``DHS should make citizen and community preparedness a 
national priority.'' Taking the lead in this effort is the Community 
Preparedness Division within FEMA's National Preparedness Directorate. 
As the former North Carolina schools superintendent, when I think of 
community preparedness, I think of the critical role that schools play 
in our communities, not only as places of learning, but also as the 
place where our children spend the majority of the day and as 
facilities that will be looked to for shelter-in-place and other 
emergency needs. I also know that emergency planners do not often think 
of schools or consult with them when they're making plans. I know that 
FEMA has some school-specific resources and online courses, but--after 
conducting a survey of school principals in my district--I'm not sure 
that these materials are getting to the school administrators and 
planners who need them. Equally importantly, I am concerned that 
emergency management officials do not integrate schools into their 
planning. I have introduced legislation today to address the needs of 
schools, and I would like to hear your assessment of how FEMA is 
helping schools prepare for emergencies.
    How has FEMA worked with schools to determine the needs of schools 
ensure that the materials that have been developed are useful to 
administrators?
    Do you know how much these resources are being used?
    What is FEMA doing to ensure that school officials are involved in 
the emergency planning process?
    How is FEMA helping schools address their emergency planning needs 
through grants?
    How much grant funding has gone to schools?
    Answer. FEMA is working to provide support to schools and youth to 
strengthen preparedness in a variety of ways.
    FEMA works closely with our partners at the Department of Education 
to provide support to schools and youth to strengthen preparedness and 
response skills. Please visit the new Department of Homeland Security 
Web site, www.dhs.gov/schoolpreparedness to see the catalogue of DHS 
resources that are focused on school preparedness. Examples of the 
online school resources include, Building a Disaster-Resistant 
University which is FEMA's guide to making colleges more resistant to 
disasters, Preparing Your School for a Crisis, published by the U.S. 
Department of Education which is designed to assist schools and 
communities with either creating a new or updating an existing crisis 
plan and Ready.gov for Kids which is the U.S. Department of Homeland 
Security's national public awareness campaign.
    Within FEMA, the Community Preparedness Division, the Grants 
Programs Directorate, and the Emergency Management Institute coordinate 
to provide resources and strengthen the integration of schools and 
youth in preparedness at all levels including national, State, local 
and tribal preparedness planning, education and outreach, and training 
and exercises.
    The integration of schools in community preparedness is a priority 
for FEMA's Community Preparedness Division and Citizen Corps, the 
Division's grassroots strategy for community preparedness. The Citizen 
Corps mission is to unite communities to prepare for and prevent 
emergencies, respond quickly and safely when needed, and to recover 
with resilience. Over 2,300 Citizen Corps Councils Nation-wide bring 
government and nongovernmental community leaders together to identify 
priorities, integrate resources and train and exercise response skills 
with both first responders and volunteers. School representatives and 
youth program leaders are critical participants on these Councils to 
integrate school emergency plans with community plans, coordinate 
public alert systems, and to educate, train and exercise the school 
community and the community's children on disaster preparedness and 
response.
    Furthermore, community preparedness, which includes school 
preparedness, is integrated across 10 of the fiscal year 2008 DHS 
preparedness grants. Since school preparedness is a priority of the 
Community Preparedness Division, the Citizen Corps Program (CCP) grant 
guidance, which is one of four grant programs under the Homeland 
Security Grant Program, explicitly makes school preparedness an 
eligible use of grant funds. For example, CCP grant guidance 
specifically states that training ``should be delivered with specific 
consideration to include all ages, ethnic and cultural groups, person 
with disabilities, and special needs populations at venues throughout 
the community, to include schools \1\ . . . ''. The CCP grant guidance 
gives States the flexibility to identify annual priorities based on 
their needs. In recognition of the critical role of school 
preparedness, States and local communities around the country are using 
these funds to hold school preparedness seminars for students and 
teachers, provide CERT training for school administrators, teachers, 
and students, print preparedness education and outreach materials for 
schools, and assist local schools in developing their school 
preparedness plans.
---------------------------------------------------------------------------
    \1\ Fiscal year 2008 Homeland Security Grant Program Guidance and 
Application Kit, Page 44-45.
---------------------------------------------------------------------------
    On the national level, Citizen Corps has partnered with the 
Department of Education to enhance school administrators, teachers and 
students connection to emergency managers and Citizen Corps Councils. 
The Department of Education is one of twenty-five National Citizen 
Corps Affiliates which expand emergency responder and non-governmental 
resources and materials available to States and local communities. One 
initiative closely collaborated on by Citizen Corps and the Department 
of Education is the ``America is Safer when our Schools are Safer'' 
NOAA Public Alert Radio Distribution Program. In an effort to improve 
public alerts and warnings for schools, the Department of Homeland 
Security, FEMA's Citizen Corps, the Department of Education's Office of 
Safe and Drug Free Schools and the Department of Commerce's NOAA 
provided 97,000 NOAA Public Alert Radios to every public school during 
2005-2006. In addition, to providing schools with the potentially life-
saving NOAA Alert Radio, connecting State and local emergency 
management and school leadership is an important goal of the ``America 
is Safer when our Schools are Safer'' distribution. The initiative has 
promoted closer integration by outreach to emergency managers and 
education leaders through conference and through the project Web site 
that provides resources, information on training opportunities and 
tools to connect emergency managers, Citizen Corps Councils and 
schools.
    FEMA Regional Offices also implement initiatives to provide FEMA 
resources and support to integrate schools in preparedness at State and 
local levels. For example, FEMA Region I is implementing a region-wide 
school-based preparedness education project in collaboration with the 
State Emergency Management Authorities and State Education Authorities. 
The Student Tools for Emergency Planning (STEP) initiative is a 
preparedness education project targeted to the 4th grade level where 
students will be taught basic preparedness and strategies for dealing 
with various types of emergencies and will act as agents to share this 
awareness with family members. Students will build emergency kits with 
their families and build a communications plan with their families. In 
2008, STEP will be piloted in 29 schools and 11 districts across New 
England, with schools representing each of the 6 New England States. 
FEMA will provide Teacher Guides, DVDs, copies of student handouts, 
refrigerator magnets, demonstration emergency kits, and student starter 
kits for all schools participating in the pilot year (2008-2009 school 
year). Teachers will dedicate between 1 and 5 hours of classroom time 
implementing STEP. Student and teacher evaluations administered after 
STEP completion will measure its effectiveness.
    At the State and local level, Citizen Corps Councils and five 
identified Partner Programs work with first responders at all levels to 
provide education, training, and preparedness activities for the 
community. As one of the Citizen Corps Partner Programs, the Community 
Emergency Response Team (CERT) Program educates community members about 
disaster preparedness and trains them in basic disaster response. CERT 
covers life-saving skills such as fire safety, light search and rescue, 
and disaster medical operations. Using their training, CERT members can 
assist others in their neighborhood or workplace following an event and 
can take a more active role in preparing their community. The CERT 
Program has expanded in recent years to include guidance for CERT 
training delivered to teens and on campuses. In addition, the CERT 
Program has been utilized by States and municipalities to prepare 
schools by training both parents and faculty. For example, the State of 
Mississippi is providing all school administrators with CERT training 
as part of the State's support for preparedness for schools.
    The twenty-five Citizen Corps Affiliates offer additional resources 
for public education, outreach, and training. Many Affiliates provide 
age and grade appropriate preparedness curricula for schools and 
children. Several Affiliates, including The Save a Life Foundation and 
the American Red Cross, provide first aid skills to youth throughout 
the country. Another Citizen Corps Affiliate, The Home Safety Council, 
promotes ``Get Ready with Freddie'' which introduces children to the 
importance of both safety and reading. Additionally, the American Red 
Cross ``Masters of Disaster'' programs and the National Fire Protection 
Association ``Risk Watch'' programs: Natural Disasters and 
Unintentional Injuries teach students how to prepare, respond and 
recover from disasters and household hazards.
    With regards to the question about how much grant funding has gone 
to schools, funding provided to educational institutions by program is 
provided below. One caveat, some of the funding represented in this 
chart is sub-granted to educational institutions for the primary 
purpose of training first responders, which could end up being used for 
funding activities which may not be strictly characterized as school 
preparedness activities (e.g., training on the National Incident 
Management System (NIMS)).


                               [Amount in Dollars]
------------------------------------------------------------------------
Reporting Period  SHSP   LETPP        CCP  UASI   EMPG  MMRS  BZPP    Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
2004 Total.   12,664,964.87    2,835,207.31   351,136.72     2,315,963.17        0.00         0.00            0.00    18,167,272.07
2005 Total.....................    11,797,476.90    1,292,158.00    30,190.00     6,106,347.35   58,831.34   227,592.00    1,208,944.50    20,721,540.09
2006 Total.....................     7,276,981.62    2,413,113.19    55,412.00     1,180,453.00   25,700.00   226,521.75            0.00    11,178,181.56
2007 Total.....................     4,122,844.00      520,039.62     7,000.00     ,086,427.01        0.00   245,237.75            0.00    12,981,548.38
                               -------------------------------------------------------------------
      Grand Total..............    35,862,267.39    7,060,518.12   443,738.72    17,689,190.53   84,531.34   699,351.50    1,208,944.50    63,048,542.10
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 2. My State of North Carolina is one of the third or 
fourth most likely States to be hit by a hurricane. The report released 
by the Inspector General this week said FEMA has made moderate progress 
in those preparedness goals most applicable to the 2008 Hurricane 
season as moderate, but was only barely in the moderate category. The 
IG was particularly critical of FEMA's failure to capitalize on the 
relatively weak hurricane seasons since Hurricane Katrina to bolster 
its big picture strategy and infrastructure. I am especially concerned 
about FEMA's ability to understand all of the assets at its disposal; 
its ability to engage in scenario planning; and its ability to preplan 
optimal delivery routes and alternatives. The many actors that would be 
called into service in a disaster include FEMA assets as well as those 
controlled by NGO's, State responders, emergency and health care 
responders, and the private sector, just to name a few, and 
coordination needs to happen before, not during, a disaster.
    Logistics is critical to preparedness. What organizations, 
companies, and State responders have been consulted by FEMA's Logistics 
division? Please provide details as to the nature of the consultations, 
what information was gleaned from each, how that information has been 
incorporated into FEMA's logistics planning, and what type of feedback 
has been provided back to each enterprise.
    What steps has FEMA taken to ensure that, in developing situational 
awareness about potential emergencies, it has access to comprehensive 
data and can also fully integrate that data into its strategic 
planning?
    I understand that FEMA has made progress in its ability to track 
assets during its response to an emergency, both its own and that of 
cooperating private and non-governmental agencies. However, 
``tracking'' assets only gives part of the picture. For example, 
predictive modeling and optimization before a disaster, could provide 
FEMA insight to help develop response plans determine which response 
efforts are most efficient. Can you describe the technologies and 
methodologies that FEMA has used in preparing for the 2008 Hurricane 
season? What are the Agency's plans for the integration of advanced 
capabilities and technologies for its future preparation?
    Answer. The Post-Katrina Emergency Management Reform Act (PKEMRA) 
2006 directed FEMA to develop an efficient, transparent, and flexible 
logistics system for procurement and delivery of goods and services 
necessary for an effective and timely response to disasters and to 
develop a Demonstration Program with regional and local governments in 
the formation of innovative public & private logistical partnerships 
and centers to improve readiness. FEMA is to ``partner with State, 
local, and tribal governments and emergency response providers, with 
other Federal agencies, with the private sector and with 
nongovernmental organizations to build a national system of emergency 
management that can effectively and efficiently utilize the full 
measure of the Nation's resources . . . '' Section 503(b)(2)(B) of 
Title 5 of the 2007 DHS Appropriations Act (Public Law 109-295).
    In the spirit of PKEMRA, the FEMA Logistics Management Directorate 
developed the National Logistics Coordinator (NLC) Concept. FEMA 
conducted the first National Logistics Coordination Forum on March 27, 
2008. This forum initiated the development of a charter and operating 
doctrine for the National Logistics Coordinator concept. This is a 
high-level initiative with participants including DOD/NORTHCOM, other 
Federal agencies, non-governmental organizations, the private sector, 
FEMA Regions and State and local governments. The FEMA National 
Logistics Coordinator (NLC) will serve as the Single Logistics 
Integrator during National disasters and special events. The National 
Logistics Coordinator (NLC) will:
  <bullet> Coordinate domestic emergency logistics planning, management 
        and sustainment capabilities;
  <bullet> Promote the strategic logistics collaboration of other 
        Federal agencies, public and private sector partners, non-
        governmental organizations, and other stakeholders;
  <bullet> Improve disaster logistics readiness, responsiveness and 
        preparedness for both Stafford Act and non-Stafford Act 
        disasters.
    Distribution Management Strategy Working Group.--The Logistics 
Management Directorate established a Distribution Management Strategy 
Working Group in September 2007, with its Federal, private and non-
governmental organizations logistics partners, to conduct a 
comprehensive analysis and develop a comprehensive distribution and 
supply chain management strategy. Partners in this group include GSA, 
DOD United States Northern Command (USNORTHCOM)/Defense Logistics, 
American Red Cross (ARC), U.S. Department of Agriculture (USDA), Health 
and Human Services (HHS) and others. The Resource Management Group 
(RMG) was established as a sub-working group to collaboratively source 
critical disaster commodities with a view of acquiring these 
commodities from the most economical, expeditious partner source. This 
group began its mission by concentrating on the supply chain of the two 
life-saving commodities, water and emergency meals.
    The Logistics Management Directorate, Plans and Exercises Division 
is aggressively employing the U.S. Army Corps of Engineers (USACE) 
Predictive Models to develop logistics support plans to address the 
State gaps analyses.
         use of modeling to improve disaster response readiness
    Modeling is an essential element of FEMA's planning efforts and 
enables planning for different circumstances and data sets. For 
example, FEMA is coordinating with the DHS Science and Technology (S&T) 
Directorate to adapt modeling tools to the specific circumstances of 
large metropolitan areas. Many tools, including HAZUS (Hazards U.S.), 
utilize a standard figure for population per square mile, often 
resulting in skewed data for areas with high-rise apartment buildings. 
The work with S&T is focusing on adapting these modeling tools to 
variable situations. FEMA's current planning efforts relative to 
hurricanes rely heavily on existing modeling tools such as:
  <bullet> HurrEvac (Hurricane Evacuation) to enable tracking 
        hurricanes and assist in evacuation decisionmaking;
  <bullet> SLOSH (Sea, Lake and Overland Surges from Hurricanes) to 
        enable estimates of storm surge heights and winds resulting 
        from historical, hypothetical, or predicted hurricanes by 
        taking into account pressure, size, forward speed, track, and 
        winds;
  <bullet> HAZUS (Hazards U.S.) established by FEMA to assess risk and 
        forecast losses based on population characteristics and the 
        building environment;
  <bullet> The U.S. Army Corps of Engineers modeling tools which rely 
        on geo-spatial capabilities to provide hurricane disaster 
        estimates of debris volumes; water, ice, and commodity needs; 
        and the number of people within the households likely within 
        hurricane force winds; and
  <bullet> NISAC (National Infrastructure Simulation and Analysis 
        Center) advanced modeling and simulation capabilities to 
        analyze critical infrastructure interdependencies and 
        vulnerabilities.
    In addition to the above-mentioned modeling, FEMA also implemented 
a Gap Analysis Tool in 2007. The Gap Analysis Tool provides FEMA and 
its partners at both the State and local levels in the hurricane-prone 
regions of the country a snapshot of disaster response asset gaps to 
determine the level of Federal support potentially needed in responding 
to a Category 3 Hurricane. Seven critical areas were incorporated in 
the initial application of the Gap Analysis Program (GAP) for review: 
debris removal, commodity distribution, evacuation, sheltering, interim 
housing, medical needs and fuel capacity along evacuation routes. 
During 2007, FEMA worked closely with each of the 18 State emergency 
management communities in hurricane-prone States, as well as the 
District of Columbia, Puerto Rico, and the U.S. Virgin Islands, using a 
consistent set of measures and tools to evaluate strengths, gaps, and 
vulnerabilities. As the Gap Analysis process evolved over the summer of 
2007, there was a steady decrease in the initial shortfalls and 
vulnerabilities identified in the seven critical areas. Also, the 
results of the GAP Analysis process facilitated a more coordinated 
FEMA/State response to Hurricane Dean and Tropical Storm Erin in 2007. 
Although FEMA's initial use of this very successful tool was used for 
the 2007 Hurricane Season, the Gap Analysis Tool and program is 
currently being expanded to cover all hazards and will be applied 
Nation-wide.
                         situational awareness
    In order to perform its disaster response mission, FEMA maintains 
multiple disaster response operations centers, teams and assets that 
play a key part in coordinating and providing disaster response 
assistance. Based on lessons learned and ongoing assessments, FEMA is 
diligently enhancing these capabilities.
    FEMA manages a network of operations centers to coordinate and 
sustain response operations; maintain situational awareness and a 
common operating picture (COP) for DHS and FEMA leadership; facilitate 
information sharing between FEMA and non-FEMA entities; and provide 
internal and external stakeholders a consolidated, consistent, and 
accurate status of on-going incidents, responses or potential events. 
The key components of this network are the National Response 
Coordination Center (NRCC) in FEMA Headquarters; the Regional Response 
Coordination Centers (RRCC) located in each of the 10 FEMA Regions; and 
the FEMA Operations Center (FOC) located at the Mt. Weather Emergency 
Operations Center (EOC); and the five strategically located Mobile 
Emergency Response Support (MERS) Operations Centers (MOC).
    The NRCC is FEMA's multi-agency center that functions as the 
operational component of the DHS National Operations Center (NOC) to 
provide Federal coordination of disaster response operations and 
emergency management program implementation. The NRCC maintains 
situational awareness links with a large number of operating nodes and 
centers at all levels of government such as: State EOC(s); selected 
local EOC(s); regional DHS components; regional ESF EOC(s); State 
Fusion Centers; Joint Terrorism Task Forces; Headquarters and Regional 
department and agency operations centers; and other key operating 
centers. The NRCC supports disaster response and resource planning; 
monitors potential or developing disaster events; supports regional and 
field component operations; and coordinates national-level disaster 
response activities and resource allocations for DHS and FEMA.
    FEMA is upgrading NRCC capabilities with the installation of a new 
Emergency Management Information Management System (EMIMS). EMIMS is a 
Web-based software system that will provide greater support to the 
NRCC, RRCCs, and JFOs in managing disaster operations and information 
flow, maintaining situational awareness, and coordinating information 
sharing. One of the initial goals with EMIMS is to incorporate the 
expanded Radiological Dispersion Device (RDD) capabilities list into 
EMIMS as a password protected resource module. Ultimately, with the 
capability provided by EMIMS, vital statistics on the location and 
content of RDD teams can be geo-coded into the system and continuously 
updated by the department/agency responsible for the team and used on a 
real time basis by the interagency community. A longer term goal is to 
use EMIMS to create a larger national asset database of all Federal 
response teams for all-hazards. This larger database would also be 
password protected and available to the interagency community for use 
to support disaster response.
    Supporting the NRCC are 10 RRCCs, regionally based multi-agency 
coordination centers that perform a complementary role to the NRCC at 
the regional level. Operating in each of the 10 FEMA Regions, the RRCC 
provides situational awareness information, identifies and coordinates 
response requirements, supports response operations, performs 
capabilities analysis and reports on the status of Federal disaster 
response operations. RRCCs maintain close links with the State, 
Regional, and local EOCs; State Fusion Centers; Joint Terrorism Task 
Forces; Regional DHS components; Regional ESFs; DoD and Interagency 
Operations Centers; adjacent Regions and MOCs; and JFOs.
    Collectively, the NRCC and RRCCs have three main functional 
responsibilities: situational awareness, notification/activation, and 
coordination of response and recovery operational support, focused 
either nationally or regionally as appropriate. Both NRCC and RRCC 
operations are scalable, depending on the nature and magnitude of the 
event. FEMA's multiple disaster response teams and assets can also be 
immediately deployed to support State and local disaster response 
operations and provide situational awareness and help develop a common 
operating picture.
   Questions From Ranking Member Charles W. Dent of Pennsylvania for 
Harvey E. Johnson, Jr., Acting Deputy Administrator and Chief Operating 
 Officer, Federal Emergency Management Agency, Department of Homeland 
                                Security
                       state preparedness reports
    Question 1. The Post-Katrina Emergency Management Reform Act 
required States submit reports on their level of preparedness for a 
terrorist attack, natural disaster, or other man-made event. All 56 
States and territories have submitted their State Preparedness Reports.
    Can you address some of the trends that were identified as part of 
this effort in terms of the state of national preparedness?
    What were the top three areas that will require the greatest 
attention by FEMA, working with its State counterparts?
    Answer. As required by the Post-Katrina Emergency Management Reform 
Act (PKEMRA), each State/territory has submitted an annual report on 
its level of preparedness to FEMA. These State Preparedness Reports 
(SPRs) generally address:
  <bullet> Compliance with key national policy and strategy frameworks;
  <bullet> Estimated current capability levels and the resources 
        (monetary and non-monetary) estimated to achieve identified 
        target levels.
    The collected SPR reports also describe State accomplishments 
building capabilities and how States intend to increase all-hazards 
preparedness in the future. FEMA is currently in the process of 
reviewing the reports to analyze overall Nation-wide trends as 
reflected in the reports, identify general areas for increased 
attention, and inform broader assessments of national preparedness. The 
analysis will also identify how States are interpreting the National 
Priorities and setting milestones for their completion; investigate 
whether similar or neighboring States share similar capabilities, 
targets, and initiatives; and identify and analyze reported 
quantitative data. We will be able to identify specific trends by July 
2008, once we have developed the summary and findings report of our 
analysis on the State Preparedness Reports. At that point, we will be 
in a better position to also identify the top areas that will require 
the greatest attention by FEMA as it works with its State counterparts. 
FEMA's SPR summary and findings report will contain the results of this 
SPR analysis effort, and produce findings regarding States' 
accomplishments, capabilities, goals, and resource needs. Approximately 
3 weeks later, we will have completed the development of a summary and 
findings briefing for Congress, as well as recommendations to revise 
and improve future SPR guidance, aimed at reducing redundancy and 
improving clarity in fulfilling reporting requirements.
                   national preparedness system tool
    Question 2. In a briefing given to the committee staff in February, 
it was stated that field tests of the ``National Preparedness System 
tool'' began in October 2007 involving approximately 160 participants 
from 10 States and 34 jurisdictions in seven FEMA regions. Nine field 
tests were completed by December 2007. Currently, the National 
Preparedness Directorate is analyzing the results and drafting a 
lessons learned report.
    Please describe the National Preparedness Directorate ``tool.''
    How is the tool used to assess a State or local area's level of 
preparedness?
    How will the results of this tool be used to inform future planning 
and priorities?
    Answer. Building on the Target Capabilities List DHS is developing 
a streamlined approach to measure capabilities--essentially using 
jurisdictional tiers to define who needs to be prepared and at what 
level of capability. This effort will help jurisdictions understand, 
based on particular risk factors, what they need to do to enhance their 
capabilities and meet performance objectives through planning, 
training, and exercising.
    In order to build an effective Comprehensive Assessment System, the 
National Preparedness Directorate's Office of Preparedness Policy, 
Planning, and Analysis (PPPA) has evaluated its entire existing suite 
of evaluation systems, including the NPS, with the aim of integrating 
best practices of current processes to provide a streamlined, effective 
approach to assessing capabilities at all levels, including State and 
local areas. All current assessment systems are being integrated into a 
single comprehensive system that will minimize the burden placed upon 
State and local jurisdictions by eliminating redundant and overlapping 
planning, assessment, information-gathering, and reporting practices. 
The specific assessment systems that were reviewed are:
  <bullet> State Preparedness Reports (SPR).--All 56 States and 
        territories have submitted SPRs to the FEMA Administrator. SPRs 
        contain assessments of current capability levels, descriptions 
        of unmet target capabilities, and assessments of resource needs 
        to meet preparedness priorities.
  <bullet> NIMS Compliance Assessment Support Tool (NIMSCAST).--
        NIMSCAST is a voluntary Web-based data collection tool used to 
        assess NIMS compliance. Fifty-six States and territories and 
        18,000 local and tribal entities have NIMSCAST accounts.
  <bullet> Gap Analysis Program (GAP).--GAP assesses 7 response mission 
        areas in 20 hurricane-prone States and territories. For 
        example, as depicted in figure 84, GAP data reveals that the 
        assessed State would require significant Federal assistance in 
        commodity distribution, evacuation, and the provision of fuel.
  <bullet> Pilot Capabilities Assessment (PCA).--PCA has completed 
        three pilots (as of November 2007) to develop a capability 
        assessment methodology.
  <bullet> National Preparedness System.--The National Preparedness 
        System has completed field tests in 10 States to evaluate all 
        37 capabilities in the TCL.
  <bullet> Capabilities Assessment for Readiness (CAR).--The CAR was a 
        one-time, Nation-wide assessment of emergency management 
        performance conducted by FEMA in 1997. The CAR was completed 
        over a 3-month period through self-assessments by 56 States and 
        Territories. Its methodology embraced 13 Emergency Management 
        Functions (EMFs) based on National Fire Protection Association 
        (NFPA) 1,600 standards.
    The National Preparedness System will play an important part in the 
Comprehensive Capability Assessment that the Post Katrina Emergency 
Management Reform Act (PKEMRA) requires. PPPA is incorporating 
important features and functions from the NPS and the best practices of 
pertinent assessment tools into a single, integrated methodology to 
facilitate the capability planning, assessment, and reporting process. 
Key components of the NPS will form a critical part of the foundation 
for the development of this enhanced assessment tool.
    The final Comprehensive Assessment System will capture best 
practices and lessons learned from these PPPA efforts to create a 
streamlined, yet comprehensive, approach. The goal is to build an 
effective national system for enhancing preparedness that integrates 
planning tools, assesses capabilities defined by the Target 
Capabilities List, and measures progress at the local, State, and 
Federal levels.
                   national response framework (nrf)
    Question 3a. The release of the updated NRF is an important step in 
improving disaster operations. Its implementation will be critical to 
the future success of FEMA in responding to an incident.
    Please provide a clear delineation of the roles and 
responsibilities of the Principal Federal Official (PFO) and Federal 
Coordinating Officer (FCO).
    Answer. HSPD-5 designates the Secretary of Homeland Security as the 
principal Federal official for domestic incident management. In 
carrying out that responsibility, the NRF provides that the Secretary 
may elect to designate a single individual to serve as a PFO and be 
his/her primary representative to ensure consistency of Federal support 
as well as the overall effectiveness of the Federal incident 
management.
    The NRF further provides that the Secretary will only appoint a PFO 
for catastrophic or unusually complex incidents that require 
extraordinary coordination. A PFO is a senior Federal official with 
proven management experience and strong leadership capabilities. Once 
formally designated for an ongoing incident, a PFO relinquishes the 
conduct of all previous duties to focus exclusively on his or her 
incident management responsibilities.
    Responsibilities of a PFO, if appointed, include:
  <bullet> Serves as the DHS Secretary's primary representative to 
        ensure consistency of Federal support and the overall 
        effectiveness of Federal incident management;
  <bullet> Interfaces with Federal, State, tribal and local officials 
        regarding the overall Federal incident management strategy;
  <bullet> Serves as the primary Federal spokesperson for coordinated 
        media and public communications;
  <bullet> Serves as the primary point of contact for situational 
        awareness locally for the Secretary of DHS;
  <bullet> Promotes collaboration and helps resolve any Federal 
        interagency conflicts that may arise;
  <bullet> Identifies and presents to the Secretary any policy issues 
        that require resolution;
  <bullet> Serves as a member of the Unified Coordination Group.
    The PFO does NOT:
  <bullet> Become the Incident Commander;
  <bullet> Direct or replace the incident command structure;
  <bullet> Have directive authority over the Senior Federal Law 
        Enforcement Officer (SFLEO), Federal Coordinating Officer 
        (FCO), or other Federal and State officials.
    The Federal Coordinating Officer (FCO) is appointed by the 
President upon recommendation of the FEMA Administrator and Secretary 
of Homeland Security, for all Stafford Act Incidents. A senior FEMA 
official trained, certified and well-experienced in emergency 
management, the FCO represents the FEMA Administrator in the field to 
discharge all FEMA responsibilities for the response and recovery 
efforts. The FCO is the focal point of coordination within the Unified 
Coordination Group, ensuring overall integration of Federal emergency 
management, resource allocation, and seamless integration of Federal 
activities in support of, and in coordination with, State, tribal, and 
local requirements for the geographic areas covered by the Stafford Act 
declaration.
    Responsibilities of a FCO include:
  <bullet> Executes Stafford Act authorities, including commitment of 
        FEMA resources and the mission assignment of other Federal 
        departments or agencies.
  <bullet> Acts as primary Federal representative with whom the State 
        Coordinating Officer, other State, tribal and local response 
        officials interface to determine most urgent needs and set 
        objectives for an effective response in collaboration with the 
        Unified Coordination Group.
    Question 3b. Does prohibiting the use of a PFO during a Stafford 
Act event adversely impact the Department's ability to leverage all 
expertise and resources available to respond appropriately?
    Answer. The Joint Explanatory Statement (JES) associated with 
Section 541 of the Fiscal Year 2008 Department of Homeland Security 
Appropriations Act recognizes that there are some situations where a 
Stafford Act declaration might be made, but the FCO and FEMA would not 
be in the lead. The JES specifically lists pandemic influenza and a 
national security special event as examples of such events. The NRF 
indicates that there may be major non-Stafford Act responses which may 
also include a Stafford Act component or instances in which FEMA would 
not be the lead agency in charge of an event. In those cases, the 
Secretary may choose to appoint a PFO. The PFO, when appointed, does 
not assume the role of Federal Coordinating Officer who is focused on 
coordinating emergency management efforts in areas covered by the 
Stafford Act declaration. Instead, the PFO serves as the Secretary of 
Homeland Security's representative in the field and promotes 
collaboration and, as possible, helps resolve Federal interagency 
conflict. For catastrophic and highly complex incidents, the PFO serves 
a complementary role to the FCO and helps ensure consistency of Federal 
response efforts spanning the prevention, protection and emergency 
management missions. In a non-Stafford Act event, such as a pandemic 
influenza outbreak or an NSSE, that involves significant national 
planning, preparation, and coordination across DHS and interagency 
mission areas, it makes little sense to disrupt the Unified 
Coordination Group leadership cadre by removing the PFO just because a 
Stafford Act declaration has been made.
    Question 3c. How is FEMA working with the Office of Operations 
Coordination to determine when a PFO may be required outside of a 
Stafford Act event?
    Answer. FEMA and DHS Operations Coordination have worked together 
very closely to ensure an integrated, comprehensive leadership 
capability in domestic ``notice events'' where there was sufficient 
time for advanced planning. For the past 2 years, DHS and FEMA have 
selected PFOs and FCOs respectively to attend common leadership and 
content training sessions. PFOs and FCOs have been pre-designated for 
national level exercises, assignments in planning and executing 
National Special Security Events, and planning contingencies, such as 
Pandemic Influenza. The distinct duties of the PFO and FCO have been 
successfully delineated in each case.
                        interagency coordination
    Question 4. The U.S. Coast Guard has been working to increase its 
force structure to include deployable specialized forces or ``Adaptive 
Force Packaging.'' These teams will be placed under one command, 
designed to integrate with DHS and other Federal and State agencies to 
create a more agile, flexible force that can deploy in advance of or 
after an event to mitigate threats or hazards.
    Has FEMA partnered with the Coast Guard on these efforts to ensure 
that deployable teams and resources are coordinated and organized 
effectively to meet incident response needs?
    Answer. United States Coast Guard (USCG) support is provided 
directly to DHS and FEMA during an emergency, with USCG response and 
incident management personnel integrating directly into the DHS/FEMA 
incident management organization established for a specific incident. 
Under the old Federal Response Plan, USCG generally played a role in 
only two support functions; Emergency Support Function (ESF) 1 and ESF 
10. However, with the broader approach adopted with both FEMA and the 
Coast Guard as part of the Department of Homeland Security and under 
the new NRF and through the implementation of Pre-scripted Mission 
Assignments, USCG now supports 9 separate ESFs across 20 possible 
Mission Assignment areas.
    To ensure close coordination of USCG and FEMA planning and disaster 
response operations, USCG liaisons are assigned to FEMA Headquarters. 
The USCG liaisons provide direct interagency coordination, advice, and 
education about resources and capabilities; coordinate operational and 
policy links between FEMA and the USCG; ensure USCG equities are 
properly represented in FEMA's National Response Coordination Center; 
and participate in and support Mission Assignment/Pre-Scripted Mission 
Assignment processes to facilitate synchronized and effective disaster 
response operations.
    FEMA has been working with the USCG, through DHS, to coordinate 
links with the USCG Deployable Operations Group as part of ongoing 
interagency support and facilitation of disaster response expertise and 
resources. FEMA has also participated in working group meetings to 
discuss the concept of deployable specialized forces.

                                 <all>

</pre></body></html>
